No. ________
IN THE SUPREME COURT OF THE UNITED STATES
Paul S. Daniels and Nanette S. Dillard,
Petitioners
v.
County of Alameda, Alameda County Board of Supervisors, Nate Miley, Scott
Haggerty, Alameda County Auditor-Controller Agency, and Patrick J. O'Connel
Respondents
United States Courts of Appeal
Ninth Circuit
No. 19-17534
United States District Court
Northern District of California
No. 19-cv-00602
Hon. Jacqueline Scott Corley
PETITION FOR A WRIT OF CERTIORARI
Violet Elizabeth Grayson (CA SBN # 122611)
270 Ninth Avenue
San Francisco, CA 94118
(646) 406-1512
vegrayson@gmail.com
Attorney for Petitioners
Paul S. Daniels and Nanette S. Dillard

Question Presented

Where absence of probable cause to prosecute is an element of a federal section
1983 civil rights claim – for example a malicious or retaliatory prosecution claim –
is the probable cause determination governed by federal law or state law?

i

TABLE OF CONTENTS
Page
QUESTION PRESENTED ............................................................................................. i
TABLE OF CONTENTS ................................................................................................ ii
TABLE OF AUTHORITIES ........................................................................................ iii
PETITION FOR A WRIT OF CERTIORARI ................................................................ 1
I.

Opinions Below................................................................................................. 1

II.

Jurisdiction....................................................................................................... 1

III.

Statutory Provision Involved........................................................................... 2

IV.

Statement of the Case...................................................................................... 2
A.

Introduction .................................................................................................. 2

B.

History of the Case ....................................................................................... 3

V.

1.

State Court Proceedings ........................................................................... 3

2.

Federal Court Proceedings ....................................................................... 4

Reasons for Granting the Writ ........................................................................ 7
A.

Introduction .................................................................................................. 7

B.

The Eleventh Circuit Opinion in Blue v. Lopez ......................................... 7

C.

The Ninth Circuit Opinion in This Case ..................................................... 9

D.

Certiorari Should Be Granted to Heal the Inter-Circuit Split
and Adopt the Eleventh Circuit’s Reasoning in Blue .............................. 10

VI.

Conclusion ...................................................................................................... 13

APPENDIX ................................................................................................................... 14
OPINION OF THE NINTH CIRCUIT COURT OF APPEAL ................................... 15
OPINION OF DISTRICT COURT DISMISSING CASE WITH LEAVE TO
AMEND ........................................................................................................................ 21
OPINION OF THE DISTRICT COURT DISMISSING CASE WITHOUT
LEAVE TO AMEND .................................................................................................... 35
ORDER OF THE NINTH CIRCUIT DENYING REHEARING EN BANC .............. 46
OPINION OF CALIFORNIA COURT OF APPEAL (RE SUPREMACY
CLAUSE) ...................................................................................................................... 49

ii

TABLE OF AUTHORITIES
Page

Cases:

Awabdy v. City of Adelanto
368 F.3d 1062 (9th Cir. 2004) ........................................................................ 2, 5, 6
Blue v. Lopez
901 F.3d 1352 (11th Cir. 2018) .................................................................... passim
Cowles v. Carter
115 Cal.App.3d 350 (1981) ..................................................................................... 5
Daniels & Dillard v. Alameda Cnty. et al.
842 F.App'x 110 (9th Cir. 2021) ....................................................................... 6, 10
Daniels & Dillard v. Alameda Cnty. et al.
2019 U.S. Dist. LEXIS 114794 (N.D. Cal. Case No. 19-cv-00602-JSC,
decided July 10, 2019) ........................................................................................ 5, 6
Hartman v. Moore
547 U.S. 250 (2006) .......................................................................................... 2, 12
Norton v. John M.C. Marble Co.
30 Cal.App.2d 451 (1939) ....................................................................................... 5
Park v. Thompson
851 F.3d 910 (9th Cir. 2017) .................................................................................. 7
People v. Dillard & Daniels
21 Cal.App.5th 1205 (2018) .................................................................................... 4
Plumley v. Mockett
164 Cal.App.4th 1031 (2008) .................................................................................. 5
Robertson v. Wegmann
436 U.S. 584 (1978) .............................................................................................. 11
Statutes:
28 U.S.C. § 1254 .......................................................................................................... 2
28 U.S.C. § 1291 .......................................................................................................... 1
28 U.S.C. § 1331 .......................................................................................................... 1
42 U.S.C. § 1983 .................................................................................................. 2, 4, 8
Constitutions:
U.S. Const., 1st Amend. .............................................................................................. 2

iii

Petition for a Writ of Certiorari

Paul S. Daniels and Nanette S. Dillard, by and through their counsel of record,
Violet Elizabeth Grayson, respectfully petition this Court for a writ of certiorari to
review a judgment of the United States Court of Appeals for the Ninth Circuit.
I. Opinions Below
The Ninth Circuit’s opinion affirming the judgment of the District Court, dated
January 12, 2021, is reported at 842 Fed. Appx. 110. The Ninth Circuit denied
rehearing en banc on March 19, 2021. This order may be found at 2021 U.S. App.
LEXIS 8167.
The order of the Federal District Court for the Northern District of California
dismissing the Complaint herein without prejudice on July 10, 2019 may be found
at 2019 U.S. Dist. LEXIS 114794. The order of the Federal District Court for the
Northern District of California dismissing the Complaint herein with prejudice on
December 2. 2019 may be found at 2019 U.S. Dist. LEXIS 207378.
The California Court of Appeal opinion, styled People v. Dillard and Daniels,
which reversed petitioners’ counts of conviction on the ground that the state court
prosecution violated the Supremacy Clause of the United States Constitution, may
be found at 21 Cal.App.5th 1205 (2018).
Each of the foregoing documents is contained in the Appendix hereto.
II. Jurisdiction
The federal district court had jurisdiction under 28 U.S.C. sections 1331 and
1343 subd. (a) (3). The Ninth Circuit of Appeals had jurisdiction under 28 U.S.C.
section 1291.

1

The Ninth Circuit having denied rehearing en banc on March 19, 2021, this
petition is timely under this Court’s COVID 19 emergency order extending time for
filing a Petition for Writ of Certiorari from 90 days to 150 days. Petitioners
accordingly invoke this Court’s jurisdiction under 28 U.S.C. section 1254 subd. (1).
III. Statutory Provision Involved
42 U.S.C. section 1983 provides:
Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or
other person within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s
judicial capacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief was unavailable.
For the purposes of this section, any Act of Congress applicable
exclusively to the District of Columbia shall be considered to be a
statute of the District of Columbia.
IV. Statement of the Case
A. Introduction
Several types of section 1983 causes of action – notably those for prosecution in
retaliation for exercise of First Amendment rights, and malicious prosecution linked
to federal constitutional violations -- require the section 1983 plaintiff to plead and
prove a lack of probable cause for the underlying prosecution. (See Hartman v.
Moore, 547 U.S. 250 (2006); Blue v. Lopez, 901 F.3d 1352 (11th Cir. 2018); Awabdy
v. City of Adelanto, 368 F.3d 1062 (9th Cir. 2004).) A difference of opinion has arisen
between the Eleventh Circuit Court of Appeals and the Ninth Circuit Court of

2

Appeals regarding whether the absence of probable cause element of these federal
section 1983 causes of action should be adjudicated applying federal law or state
law. (Compare Blue, supra (applying federal law) and Awabdy, supra (stating in
dicta that state law applies.))
B. History of the Case
1. State Court Proceedings
This case began with corrupt county officials’ retaliation against a whistleblower and her husband. Nanette Dillard was the executive director of a quasigovernmental anti-poverty agency. In 2010, she discovered that funds which
Alameda County was holding in trust for the anti-poverty agency were missing from
the county treasury. Ms. Dillard reported the funds missing to Alameda County
Supervisor Nate Miley, who sat on the anti-poverty agency’s board of directors.
Unbeknownst to Dillard, Miley and his fellow Alameda County Supervisor, Scott
Haggerty, who also sat on the anti-poverty agency’s board, were responsible for the
disappearance of the funds.
Miley promptly had Dillard terminated from her position as executive director of
the anti-poverty agency. Dillard’s husband, Paul Daniels, who also worked for the
anti-poverty agency, was likewise terminated. Dillard then sued Miley, Haggerty,
and the County, alleging that her termination violated California law. Alameda
County settled this lawsuit for a sum in excess of $300,000.
In the next round of retaliation, County Supervisors Miley and Haggerty
induced the Alameda County District Attorney -- an elected county official like
themselves -- to commence a prosecution against Dillard and Daniels. Supervisor
Haggerty openly told a reporter for a local newspaper that he was in talks with the
District Attorney’s office for the purpose of inducing a prosecution. After the

3

prosecution was commenced, a deputy district attorney assigned to the case
confided to defense counsel that he did not like pursuing this case of dubious merit,
but that the District Attorney’s Office was acting under intense political pressure.
The case was tried to a jury over the course of four months. The jury acquitted
Dillard and Daniels on most counts, but convicted on others. The two counts on
which both Daniels and Dillard were convicted involved prosecuting Dillard and
Daniels for violation of federal civil regulations governing a grant program
administered by the federal Department of Health and Human Services. Dillard
and Daniels appealed, and a state appellate court overturned their convictions for
violation of the federal grant program regulations, on the ground that the state
court prosecution interfered with the federal department’s administration of its
grant program, thereby violating the Supremacy Clause of the United States
Constitution. (See People v. Dillard and Daniels, 21 Cal.App.5th 1205 (2018)) In the
wake of the California Court of Appeal’s decision, the state trial court dismissed the
case against Dillard and Daniels, and expunged their criminal records.
2. Federal Court Proceedings
Although the state trial court judge did not sentence Dillard or Daniels to
custody time, noting that that they had not taken money for themselves, and that
they had done much good in their lives, the prosecution was nevertheless
catastrophic for Dillard and Daniels. Attorneys’ fees consumed all of their cash on
hand and savings. They became unemployed and unemployable. They lost their
house in foreclosure. Daniels was unable to pay for his blood pressure medication.
After their records were expunged, Dillard and Daniels commenced a federal
civil rights case, under 42 U.S.C. section 1983, against Miley, Haggerty, Alameda
County, and related county governmental defendants. The section 1983 case alleged

4

retaliatory and malicious prosecution. The Federal District Court for the Northern
District of California dismissed the case, relying upon what is commonly known as
the California Interim Adverse Judgment Rule. The District Court observed that
plaintiffs were required to plead and prove an absence of probable cause for their
prosecution. The District Court further opined that, per Awabdy v. City of Adelanto,
368 F.3d 1062 (9th Cir. 2004), the probable cause determination was governed by
state law. The District Court then cited California Interim Adverse Judgment Rule
cases, one dating back to the 1930s, for the proposition that a conviction, even if
reversed on appeal, conclusively established probable cause to prosecute. (See
Daniels and Dillard v. Alameda County et al., 2019 U.S. Dist. LEXIS 114794 * 15
(N.D. Cal. Case No. 19-cv-00602-JSC, decided July 10, 2019), citing Cowles v.
Carter, 115 Cal.App.3d 350, 358 (1981); Norton v. John M.C. Marble Co., 30
Cal.App.2d 451, 454–55 (1939), and Plumley v. Mockett, 164 Cal.App.4th 1031, 1053
(2008).) Thus, the Alameda County District Attorney was deemed to have had
probable cause to prosecute Dillard and Daniels for violation of the federal civil
regulations, even though the California Court of Appeal overturned the convictions
on the ground that the prosecution was barred from its inception by the Supremacy
Clause of the United States Constitution – in other words that the prosecution itself
violated the United States Constitution and was therefore void ab initio.
Dillard and Daniels appealed to the Ninth Circuit. In both the District Court
and the Circuit Court, Dillard and Daniels argued that federal law, rather than
state law, should be applied to the probable cause determination, for the reasons set
forth in Blue v. Lopez, 901 F.3d 1352 (11th Cir. 2018). The district court rejected
this suggestion, stating: “This Court is bound by the Ninth Circuit and Plaintiffs'
reliance on the Eleventh Circuit's decision in Blue v. Lopez, 901 F.3d 1352 (11th Cir.

5

2018), is thus unpersuasive.” (Daniels and Dillard v. Alameda County et al., 2019
U.S. Dist. LEXIS 207378, *8 (N.D. Cal. Case No. 19-cv-00602-JSC, decided
December 2, 2019))
In the Ninth Circuit, plaintiffs Daniels and Dillard argued that the Circuit
Court’s statement in Awabdy v. City of Adelanto, 368 F.3d 1062 (9th Cir. 2004), to
the effect that probable cause determinations in section 1983 malicious prosecution
cases were governed by state law, was casual dicta because, in concluding that
probable cause to prosecute Mr. Awabdy was lacking, the Ninth Circuit cited
interchangeably to state law, federal law, and national treatises. The Ninth Circuit
panel in this case, however, rejected this argument, stating:
We have unambiguously held that state law determines whether
probable cause existed in a state court action “because we have
incorporated the relevant elements of the common law of tort of
malicious prosecution into our analysis under § 1983.” Awabdy v. City
of Adelanto, 368 F.3d 1062, 1066 (9th Cir. 2004.) Nothing about that
admonition is dicta, and it clearly binds us.
*****
If the criminal charges result in a conviction, the prima facie
presumption [of probable cause to prosecute] becomes conclusive and
may only be overcome by a showing that the conviction was obtained
by fraud or perjury. Plumley v. Mockett, 79 Cal. Rptr. 3d 833 838 (Cal.
Ct. App. 2008). Even an appellate reversal of the criminal conviction
will not negate probable cause absent one of these factors. See
Bealmear v. S. Cal. Edison, Ltd., 139 P.2d 20, 21 (Cal. 1943)
(Daniels and Dillard v. Alameda County et al., 842 Fed. Appx. 110, 111 (9th Cir.
2021))
In addition to opining that state law governed the probable cause determination
and barred plaintiffs’ lawsuit, the Ninth Circuit further stated that plaintiffs had
not pled with sufficient particularity. In so stating, the panel failed to address the

6

controlling Ninth Circuit case of Park v. Thompson, 851 F.3d 910, 928–929 (9th Cir.
2017), heavily relied upon by plaintiffs, which holds that pleading requirements are
relaxed when the relevant facts are known only to the defendants.
Dillard and Daniels moved for en banc rehearing of the panel opinion.¹ The
Ninth Circuit denied rehearing en banc on March 19, 2021. In the wake of denial of
rehearing en banc, we are left with a sharp split of authority between two federal
circuit courts regarding an important matter of federal law.
V. Reasons for Granting the Writ
A. Introduction
Paul Daniels and Nanette Dillard respectfully petition this Court to grant a writ
of certiorari because the decision of the Ninth Circuit Court of Appeals in their case
conflicts with the decision of the Eleventh Circuit Court of Appeals in Blue v. Lopez,
901 F.3d 1352 (11th Cir. 2018), regarding an important point of federal law. (See
Rules of the Supreme Court of the United States, Rule 10) For the reasons set forth
below, petitioners urge this Court to grant certiorari and adopt the Eleventh
Circuit’s reasoning in Blue.
B. The Eleventh Circuit Opinion in Blue v. Lopez
The question adjudicated on appeal in Blue v. Lopez, 901 F.3d 1352 (11th Cir.
2018), was whether Georgia’s “Monroe Rule,” which dictated that denial of a motion
for directed verdict in a criminal trial conclusively demonstrated the existence of
probable cause to prosecute, thereby precluding a Georgia common-law malicious
¹ The Ninth Circuit opinion was authored by Judge Jay Bybee, and joined by
Judge Ryan Nelson and the Honorable Robert H. Whaley, United States District
Judge for the Eastern District of Washington, sitting by designation.

7

prosecution action, also operated to conclusively demonstrate the presence of
probable cause to prosecute in the context of a federal 42 U.S.C. section 1983 civil
rights action. The Eleventh Circuit answered this question in the negative,
observing that the Monroe Rule was the wrong “measuring device” in a federal
section 1983 action. (Blue, supra, 901 F.3d at 1354) “The denial of a directed verdict
in a criminal trial does not measure what matters in evaluating on summary
judgment in the §1983 case whether probable cause for a prosecution existed: the
credibility, reliability, and quality of evidence supporting the prosecution in the first
place.” (Ibid.)
The Eleventh Circuit further explained:
[T]he district court found, based on the Georgia criminal court's denial
of the motion for directed verdict, that Blue could not establish a
necessary element of his malicious-prosecution claim—a lack of
probable cause. The district court did not conduct any independent
analysis of whether probable cause in fact existed to prosecute Blue.
Rather, it relied exclusively on the Monroe Rule and the denial of the
motion for directed verdict in Blue's criminal prosecution to preclude
Blue's claim.
(Blue, supra, 901 F.3d at 1358)
The Eleventh Circuit concluded that this approach was erroneous:
Federal law, not state law, governs the resolution of §1983 claims. And
federal law does not allow the denial of a motion for directed verdict to
serve as conclusive evidence of probable cause. [¶] [A . . .] malicious
prosecution claim under § 1983 remains a federal constitutional claim,
and its elements and whether they are met ultimately are controlled
by federal law. So although courts historically have looked to the
common law for guidance as to the constituent elements of the claim,
when malicious prosecution is brought as a federal constitutional tort,
the outcome of the case does not hinge on state law, but federal law,
and does not differ depending on the tort law of a particular state.
Indeed, with respect to the very issue we consider here, we have cited
with approval the Second Circuit's statement that the "federal law of
probable cause—not state law—should determine whether a plaintiff

8

has raised a genuine issue of material fact with respect to a § 1983
malicious prosecution claim. Id. (quoting Green v. Montgomery, 219
F.3d 52, 60 n.2 (2d Cir. 2000)).
If the rule were otherwise, the same malicious-prosecution claim
brought as a federal constitutional tort would result in different
outcomes depending on the state in which it was prosecuted. But a
§ 1983 malicious-prosecution claim is a federal constitutional tort. It is
therefore governed by federal law, so it will produce the same outcome,
regardless of the state in which it is brought . . . Here, however, the
district court relied on state law instead of federal law to resolve Blue's
malicious-prosecution claim. And in this case, the state law the district
court relied upon—the Monroe Rule—yields a resolution that federal
law does not allow.
(Blue, supra, 901 F.3d at 1358; emphasis in original; some internal quotation marks
and citations omitted.)
The Eleventh Circuit further held that Georgia’s “fraud and corruption”
exception to the Monroe Rule did not justify its application in the section 1983
setting:
[A] jury evaluating a § 1983 malicious-prosecution claim may choose to
disbelieve a civil defendant based on far less than evidence that the
defendant engaged in a fraud on the court or that she intentionally
corrupted the criminal trial. So the fraud-and-corruption exception to
the Monroe Rule cannot render the Rule a viable stand-in for a factual
determination of whether probable cause actually existed at the time of
the prosecution.
(Blue, supra, 901 F.3d at 1359)
C. The Ninth Circuit Opinion in This Case
The Ninth Circuit opinion in this case takes an approach diametrically opposed
to the approach taken by the Eleventh Circuit in Blue, supra. The opinion reads:

9

The district court correctly applied California law to find that probable
cause existed to charge Daniels and Dillard criminally. It is well
settled that the existence of probable cause dooms a malicious or
retaliatory prosecution claim. See Hartman v. Moore, 547 U.S. 250,
265–66 (2006); Lassiter v. City of Bremerton, 556 F.3d 1049, 1054 (9th
Cir. 2009). We have unambiguously held that state law determines
whether probable cause existed in a state court action “because we
have incorporated relevant elements of the common law tort of
malicious prosecution into our analysis under § 1983.” Awabdy v. City
of Adelanto, 368 F.3d 1062, 1066 (9th Cir. 2004). Nothing about that
admonition is dicta, and it clearly binds us here.
In “California, as in virtually every other jurisdiction” prima facie
evidence of probable cause exists when a defendant is held to answer
to criminal charges after a preliminary hearing. Id. at 1067 (citing
Holliday v. Holliday, 5 P. 703, 704 (Cal. 1898)). The prima facie
evidence is only rebutted if the prosecution was induced by fraud,
corruption, perjury, fabricated evidence, or other wrongful conduct
undertaken in bad faith. Id. (citations omitted). If the criminal charges
result in a conviction, the prima facie presumption becomes conclusive
and may only be overcome by a showing that the conviction was
obtained by fraud or perjury. Plumley v. Mockett, 79 Cal. Rptr. 3d 822,
838 (Cal. Ct. App. 2008). Even an appellate reversal of the criminal
conviction will not negate probable cause absent one of these factors.
See Bealmear v. S. Cal. Edison, Ltd., 139 P.2d 20, 21 (Cal. 1943).
(Daniels and Dillard v. Alameda County et al., 842 Fed. Appx. 110, 111 (9th Cir.
2021))
D. Certiorari Should Be Granted to Heal the Inter-Circuit Split
and Adopt the Eleventh Circuit’s Reasoning in Blue
As set forth above, Eleventh Circuit precedent and Ninth Circuit precedent are
sharply in conflict regarding an important point of federal law. They cannot be
harmonized. Consequently, the outcome in federal section 1983 civil rights cases
involving a probable cause element depends upon the federal circuit (and within the
Ninth Circuit, the state) in which the plaintiff’s rights under the United States
Constitution were violated. This creates a fundamentally unfair and chaotic

10

situation. The section 1983 action to vindicate the plaintiff’s civil rights under the
United States Constitution stands or falls, arbitrarily, based upon the locality
where those rights were violated.
Such an outcome is inconsistent with this Court’s precedent. In Robertson v.
Wegmann, 436 U.S. 584 (1978), this Court held that state law may be imported into
section 1983 cases only where federal law is silent, the state law is not “inhospitable
to survival of a section 1983 action,” and the state law “has no independent adverse
effect on the policies underlying section 1983.” (Robertson, supra, 436 U.S. at 594)
State law rules such as Georgia’s Monroe Rule or California’s Interim Adverse
Judgment Rule, relied upon by the Ninth Circuit in this case, are “inhospitable to
survival of [] section 1983 action[s],” as illustrated by both Blue and the instant
case. As explained by the Eleventh Circuit in Blue, the importation of such rules
into section 1983 cases does indeed have an “independent adverse effect on the
policies underlying section 1983.” The Eleventh Circuit explained:
The functions of § 1983 and the Georgia malicious-prosecution action
differ. As we have noted, the Monroe Court acknowledged that Georgia
law disfavors malicious-prosecution claims. [] Section 1983, on the
other hand, is not a disfavored cause of action. Rather, it was designed
to provide a broad remedy for violations of federally protected civil
rights . . . (Owen v. City of Independence, 445 U.S. 622, 636 (1980)
(§ 1983 provides a broad remedy for violations of federally protected
rights). But where a directed verdict was previously denied, the
Monroe Rule begrudgingly allows for malicious-prosecution claims to
be brought under Georgia law only when an alleged victim of the
violation can prove fraud on the criminal court or corruption of the
criminal trial. Georgia law's presumption disfavoring all maliciousprosecution claims—no matter how meritorious—runs contrary to the
remedial purpose of § 1983 . . .
(Blue, supra, 901 F.3d at 1359–1360; emphasis added.)
Unsurprisingly, this Court has specifically cautioned against importation of
state tort law, particularly the elements of malicious prosecution, into federal

11

constitutional torts. In Hartman v. Moore, 547 U.S. 250 (2006), the very case
establishing the lack of probable cause element for federal retaliatory prosecution
claims, this Court opined that “the common law is best understood here more as a
source of inspired examples than of prefabricated components of [constitutional] tort
claims.” (Hartman, supra, 547 U.S. at 258) The folly of importing state law tort
rules concerning malicious prosecution into section 1983 cases is vividly illustrated
by the instant case where importation and mechanical application of California’s
Interim Adverse Judgment Rule barred section 1983 malicious and retaliatory
prosecution claims even though the criminal prosecution was itself violative of the
Supremacy Clause of the United States Constitution and therefore void ab initio. It
is difficult to conceive of a state procedural rule more inhospitable to the vindication
of federal constitutional rights.
In summary, state courts and state legislatures should not be allowed carte
blanche to impose procedural rules protecting state actors who have violated the
United States Constitution. Everyone should enjoy equal access to the remedies
afforded by section 1983 when their federal constitutional rights are violated. There
is an overriding need for national uniformity in the law governing the substantive
elements of section 1983 civil rights claims. A patchwork approach is arbitrary and
fundamentally unfair. This Court should therefore grant certiorari to heal the
doctrinal split between the Circuits, and adopt the reasoning set forth by the
Eleventh Circuit in Blue.

12

VI. Conclusion
For the reasons stated above, Paul Daniels and Nanette Dillard respectfully
request that this Court issue a writ of certiorari to review the judgment of the
United States Court of Appeals for the Ninth Circuit.

Respectfully submitted,
Dated: July 13, 2021

By: /s/ Violet Elizabeth Grayson
Attorney for Petitioners
Paul S. Daniels and Nanette S.
Dillard

13

Appendix

14

Opinion of the Ninth Circuit
Court of Appeal

15

Case: 19-17534, 01/26/2021, ID: 11981248, DktEntry: 44-1, Page 1 of 5

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

JAN 26 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

PAUL S. DANIELS; NANETTE S.
DILLARD,

No.

19-17534

D.C. No. 3:19-cv-00602-JSC
Plaintiffs-Appellants,
MEMORANDUM*

v.
COUNTY OF ALAMEDA; ALAMEDA
COUNTY BOARD OF SUPERVISORS;
NATE MILEY; SCOTT HAGGERTY;
ALAMEDA COUNTY AUDITORCONTROLLER AGENCY; PATRICK J.
O’CONNELL,
Defendants-Appellees,
and
KEITH CARSON; RICHARD VALLE;
WILMA CHAN, County Supervisor;
SUSAN MURANISHI; DIANA SOUZA;
ROBERT LIEBER,
Defendants.

Appeal from the United States District Court
for the Northern District of California

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

16

Case: 19-17534, 01/26/2021, ID: 11981248, DktEntry: 44-1, Page 2 of 5

Jacqueline Scott Corley, Magistrate Judge, Presiding
Argued and Submitted January 12, 2021
San Francisco, California
Before: BYBEE and R. NELSON, Circuit Judges, and WHALEY,** District
Judge.
Paul Daniels and Nanette Dillard appeal the district court’s order dismissing
their malicious- and retaliatory-prosecution claims, which they brought under 42
U.S.C. § 1983. The couple argues that the district court erroneously relied on
California law—instead of federal law—to impose a presumption that the Alameda
County District Attorney had probable cause to charge them in connection with
misappropriated federal grant funds. Alternatively, the couple contends that the
district court erred in concluding that their complaint failed to adequately connect
any particular defendant to the district attorney’s charging decision. The district
court had jurisdiction under 28 U.S.C. §§ 1331, 1343(a)(3), and we have
jurisdiction under 28 U.S.C. § 1291. We review de novo the district court’s
dismissal for failure to state a claim under Rule 12(b)(6) of the Federal Rules of
Civil Procedure. Curtis v. Irwin Indus., Inc., 913 F.3d 1146, 1151 (9th Cir. 2019).
We affirm.

**

The Honorable Robert H. Whaley, United States District Judge for the
Eastern District of Washington, sitting by designation.
2

17

Case: 19-17534, 01/26/2021, ID: 11981248, DktEntry: 44-1, Page 3 of 5

The district court correctly applied California law to find that probable cause
existed to charge Daniels and Dillard criminally. It is well settled that the
existence of probable cause dooms a malicious- or retaliatory-prosecution claim.
See Hartman v. Moore, 547 U.S. 250, 265–66 (2006); Lassiter v. City of
Bremerton, 556 F.3d 1049, 1054 (9th Cir. 2009). We have unambiguously held
that state law determines whether probable cause existed in a state court action
“because we have incorporated the relevant elements of the common law tort of
malicious prosecution into our analysis under § 1983.” Awabdy v. City of
Adelanto, 368 F.3d 1062, 1066 (9th Cir. 2004). Nothing about that admonition is
dicta, and it clearly binds us here.
In “California, as in virtually every other jurisdiction” prima facie evidence
of probable cause exists when a defendant is held to answer to criminal charges
after a preliminary hearing. Id. at 1067 (citing Holliday v. Holliday, 55 P. 703, 704
(Cal. 1898)). That prima facie evidence is only rebutted if the prosecution was
“induced by fraud, corruption, perjury, fabricated evidence, or other wrongful
conduct undertaken in bad faith.” Id. (citations omitted). If the criminal charges
result in a conviction, the prima facie presumption becomes conclusive and may
only be overcome by a showing that the conviction was obtained by fraud or
perjury. Plumley v. Mockett, 79 Cal. Rptr. 3d 822, 838 (Cal. Ct. App. 2008). Even
3

18

Case: 19-17534, 01/26/2021, ID: 11981248, DktEntry: 44-1, Page 4 of 5

an appellate reversal of the criminal conviction will not negate probable cause
absent one of those factors. See Bealmear v. S. Cal. Edison Co., Ltd., 139 P.2d 20,
21 (Cal. 1943).
Daniels and Dillard have not rebutted either presumption. The couple has
not alleged any facts demonstrating that their convictions were the result of fraud
or perjury. Nor have they adequately alleged that the district attorney’s decision to
charge them was the result of fraud, corruption, perjury, or other bad-faith motives.
The complaint alleges wide-spread corruption within the Alameda County
government. But the couple does not plausibly allege that the defendants were
“actively instrumental in causing the initiation of legal proceedings.” See Awabdy,
368 F.3d at 1067. And where the complaint does allege specific facts related to the
district attorney’s decision to charge the couple, the allegations are too attenuated
to have been “instrumental” to the charging decision. Id.
Alternatively, the couple failed to allege specific facts tying any particular
defendant to the district attorney’s charging decision. To state a claim in a § 1983
action, a plaintiff must plead facts showing that each defendant’s “own individual
actions . . . violated the Constitution.” Ashcroft v. Iqbal, 556 U.S. 662, 676 (2009).
The closest the complaint comes to plausibly connecting a particular defendant to
the district attorney’s charging decision is that one county board member
4

19

Case: 19-17534, 01/26/2021, ID: 11981248, DktEntry: 44-1, Page 5 of 5

recommended that the district attorney investigate Dillard for allegedly
misappropriating federal grant funds in March 2011. Even assuming that the
defendant specifically asked the district attorney to charge the couple, we presume
that a district attorney’s charging decision “result[ed] from an independent
determination on the part of the prosecutor.” Awabdy, 368 F.3d at 1067. The
isolated allegation here does not rebut that presumption and has not “nudged [the
couple’s] claims . . . across the line from conceivable to plausible.” Iqbal, 556
U.S. at 680 (citations omitted).
AFFIRMED.

5

20

Opinion of District Court
Dismissing Case with Leave to
Amend

21

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 1 of 13

1
2
3
4
5
6

UNITED STATES DISTRICT COURT

7

NORTHERN DISTRICT OF CALIFORNIA

8
PAUL S. DANIELS, et al.,

9

Plaintiffs,

10

ORDER GRANTING MOTION TO
DISMISS WITH LEAVE TO AMEND

v.

11
United States District Court
Northern District of California

Case No.19-cv-00602-JSC

Re: Dkt. No. 15

ALAMEDA COUNTY, et al.,

12

Defendants.

13
14

Paul Daniels and Nanette Dillard allege that they were prosecuted by the Alameda County

15
16

District Attorneys’ Office in retaliation for exercising their First Amendment rights. Defendants

17

move to dismiss all of Plaintiffs’ claims under Federal Rule of Civil Procedure 12(b)(6) and to

18

strike the state law claims under California Code of Civil Procedure § 425.16, the anti-Strategic

19

Lawsuits Against Public Participation (anti-SLAPP) statute.1 (Dkt. No. 15.) After carefully

20

considering the parties’ submissions, including their post-hearing submissions, and having had the

21

benefit of oral argument on June 13, 2019, Defendants’ motion to dismiss Plaintiffs’ Section 1983

22

claim is GRANTED with leave to amend and the motion to dismiss Plaintiffs’ state law claims is

23

denied without prejudice. The Section 1983 claim must be dismissed because Plaintiffs have not

24

plausibly alleged that each defendant caused Plaintiffs’ prosecution; nor have they plausibly

25

alleged an absence of probable cause. The Court declines to address the state law claims until it

26

determines if the federal claim will proceed past the pleading stage.

27
28

1

All parties have consented to the jurisdiction of a magistrate judge pursuant to 28 U.S.C. §
636(c). (Dkt. Nos. 7 & 9.)

22

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 2 of 13

BACKGROUND

United States District Court
Northern District of California

1
2

A. Complaint Allegations2

3

Nanette Dillard was the Executive Director of Alameda County’s Associated Community

4

Action Program (“ACAP”). (Complaint at ¶ 7.) ACAP was a “quasi-governmental Joint Powers

5

Agency in Alameda County.” (Id. at ¶ 5.) During the summer of 2005, Ms. Dillard and Paul

6

Daniels, who worked for ACAP as the Community Services Block Grant Manager, fell in love.

7

(Id. at ¶ 7.) The couple married two years later in 2007. (Id.)

8

In 2010, Ms. Dillard discovered that $159,000 which should have been held in the

9

Alameda County Treasury for ACAP was missing. (Id. at ¶ 8.) Ms. Dillard raised this issue at a

10

January 19, 2011 meeting with Alameda County Board of Supervisors President Nate Smiley, who

11

was also a member of the ACAP Governing Board. (Id.) Although Ms. Dillard requested Mr.

12

Smiley’s assistance in tracing the missing funds, they were never accounted for and Ms. Dillard

13

now believes that Supervisor Miley and Scott Haggerty, who was on the Alameda County Board

14

of Supervisors, caused them to be transferred. (Id.)
At the January 19, 2011 meeting Ms. Dillard also raised concerns regarding the financial

15
16

services Alameda County provided to ACAP under the joint powers agreement. (Id. at ¶ 9.) Ms.

17

Dillard requested that ACAP be allowed to go forward as an independent 501(c)(3) non-profit

18

organization and allowed to “operate outside of political motivation.” (Id.) This change did not

19

happen, and instead, Plaintiff was placed on administrative leave following a February 2, 2011

20

emergency closed door session of the ACAP Board of Governors. (Id. at ¶ 11.) Ms. Dillard and

21

Mr. Daniels were both subsequently removed from their positions with ACAP. (Id. at ¶ 12.)
The County thereafter shut down ACAP and “cannibalized its grants to benefit the pet pork

22
23

barrel projects of certain supervisors including Supervisor Miley.” (Id. at ¶ 12.) The County then

24

attempted to interfere with Ms. Dillard and Mr. Daniels’ unemployment benefits by suggesting

25

that they had been terminated for cause. (Id.) Ms. Dillard sued the ACAP Governing Board

26

including Mr. Miley, Mr. Haggerty, Mr. Lieber, and Ms. Souza for violation of her rights under

27
28

Because the Court only relies on the facts as alleged in the Complaint, Plaintiffs’ request to strike
portions of Defendants’ brief summarizing the facts is denied as moot.
2
2

23

United States District Court
Northern District of California

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 3 of 13

1

California’s Brown Act based on their actions at the February 2, 2011 meeting and her

2

termination. (Id. at ¶ 13.) The County ultimately agreed to settle the suit for more than $300,000.

3

(Id.)

4

As soon as the settlement was reached, “County officials immediately demanded that

5

Dillard return the settlement money paid, based on a bogus theory that Dillard was liable for

6

certain ACAP indebtedness to the federal government.” (Id. at ¶ 14.) However, this

7

“indebtedness was a consequence of the County Political Defendants’ own actions.” (Id.) When

8

Ms. Dillard refused to return the settlement money, “the county Political Defendants trumped up a

9

raft of specious accusations, and caused a criminal prosecution to be commenced against both

10

Dillard and Daniels.” (Id.) Defendants “peddled” “false allegations” to the District Attorney’s

11

Office and Ms. Dillard and Mr. Daniels were charged with having violated federal regulations by

12

“drawing down and distributing federal Department of Health and Human Services (“DHHS”)

13

funds.” (Id. at ¶ 16.) The criminal complaint also charged Ms. Dillard with “enrich[ing] herself

14

by utilizing ACAP resources, and [] creat[ing] two backdated documents immediately following

15

her dismissal as executive director of ACAP.” (Id.) Mr. Daniels was only charged “to place

16

pressure on Dillard to enter a plea bargain” and she was promised that if she entered a plea, the

17

charges against Mr. Daniels would be reduced to a misdemeanor. (Id. at ¶ 17.) A deputy district

18

attorney also advised Mr. Daniels and Ms. Dillard’s defense counsel that although “the

19

prosecutors were disinclined to bring the action of highly dubious merit,” they did so because of

20

“intense political pressure from the County Board of Supervisors.” (Id.) Plaintiffs also

21

subsequently discovered that the County was pursuing an insurance claim that the carrier would

22

only pay if Mr. Daniels or Ms. Dillard was convicted of a crime. (Id.)

23

Mr. Daniels and Ms. Dillard “refused to buckle under pressure” and the case against them

24

proceeded to trial. (Id. at ¶ 18.) The trial lasted over four months during which time “Defendants

25

drummed up publicity, and Dillard and Daniels were portrayed in the press and media as crooks.”

26

(Id.) The cost of attorney’s fees “was crushing” and led to Ms. Dillard and Mr. Daniels losing

27

their home in foreclosure. (Id. at ¶ 19.) Mr. Daniels and Ms. Dillard were eventually convicted of

28

some of the charges and acquitted of others. (Id. at ¶ 20.) In particular, they were both convicted
3

24

United States District Court
Northern District of California

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 4 of 13

1

of improper “draw-down” of federal funds and Ms. Dillard was also convicted of creating two

2

post-dated documents that she intended to use in unspecified legal proceedings. (Id.) Neither Mr.

3

Daniels nor Ms. Dillard received any custody time; instead, the judge ordered them to pay over

4

$300,000 in restitution. (Id. at ¶ 21.) “The restitution order was based upon the mistaken belief

5

that Dillard and Daniels owed this sum to the federal Department of Health and Human Services.”

6

(Id.)

7

Mr. Daniels and Ms. Dillard appealed their convictions; however, this process took over

8

four years and during this time they paid appellate counsel $100,000 which left them “destitute”

9

and “virtually unemployable.” (Id. at ¶ 22.) On March 29, 2018, the First District Court of

10

Appeal issued an opinion finding that “Alameda County had violated the Supremacy Clause of the

11

United States Constitution by fashioning state law crimes out of violations of non-penal federal

12

regulations, when the federal agency charged with administering the regulations did not deem

13

Daniels’ and Dillards’ conduct culpable.” (Id. at ¶ 24.) As a result, Mr. Daniels “was fully

14

exonerated on the merits” and Ms. Dillard was “left with only a single count of conviction, for

15

creating two back-dated documents.” (Id.)

16

The Alameda County Superior Court subsequently granted Mr. Daniels’ and Ms. Dillard’s

17

request to dismiss all charges, terminate their probation, and expunge their criminal records. (Id.

18

at ¶ 25.) Both Mr. Daniels and Ms. Dillard nonetheless continue to struggle for employment. (Id.

19

at ¶ 26.) Ms. Dillard now works for a tour company making $47,000 a year. (Id.)

20

B. Procedural Background

21

Nearly ten months after the Court of Appeal’s decision, Mr. Daniels and Ms. Dillard filed

22

this action against Alameda County; the Alameda County Board of Supervisors; Nate Miley,

23

Keith Carson, Scott Haggerty, Wilma Chan, all members of the Alameda County Board of

24

Supervisors; Susan Muranishi, the Alameda County Administrator; Robert Lieber, the former

25

mayor of Albany and a former member of the ACAP Governing Board; Diana Souza, a former

26

San Leandro City Council member and former member of the ACAP Governing Board, the

27

Alameda County Auditor-Controller Agency, and Patrick O’Connell, the former Alameda County

28

Auditor-Controller. (Dkt. No. 1.) Plaintiffs plead four claims for relief: (1) malicious/retaliatory
4

25

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 5 of 13

1

prosecution in violation of 42 U.S.C. § 1983; (2) malicious prosecution under California common

2

law; (3) violation of the Bane Act, Cal. Civ. Code § 52.1; and (4) California common law

3

intentional infliction of emotional distress.

4
5

Wilma Chan, Scott Haggerty, Nate Miley, Susan Muranishi, Patrick J O'Connell, and Richard

6

Valle (hereafter “Defendants”) subsequently filed the now pending motion to dismiss and to strike

7

the state law claims under California Code of Civil Procedure § 425.16, the anti-Strategic

8

Lawsuits Against Public Participation (anti-SLAPP) statute. (Dkt. No. 15.) Defendants Diana

9

Souza and Robert Lieber separately moved to dismiss and Plaintiffs thereafter voluntarily

10
11
United States District Court
Northern District of California

Defendants Alameda County, Alameda County Board of Supervisors, Keith Carson,

dismissed their claims against both of these defendants. (Dkt. Nos. 17, 21, 25 & 27.)
DISCUSSION

12

Defendants move to dismiss Plaintiffs’ claims on multiple grounds. As a threshold matter,

13

they insist that Plaintiffs’ complaint fails to state a claim upon which relief can be granted because

14

Plaintiffs have not sufficiently alleged that any defendant caused the criminal prosecution, and,

15

even if they could so allege, given their conviction following a jury trial Plaintiffs cannot show as

16

a matter of law that probable cause was lacking for their prosecution. In the alternative,

17

Defendants insist that Plaintiffs’ Section 1983 claim is time-barred, that Defendants are entitled to

18

qualified immunity, and that there is no basis for municipal liability against the County or the

19

Board of Supervisors. In addition, Defendants maintain that Plaintiffs’ state law claims fail on

20

other grounds and that they must be struck under the California anti-SLAPP statute.

21

A. Section 1983 Malicious and/or Retaliatory Prosecution Claim

22

Plaintiffs allege that “Defendants caused Dillard and Daniels to be prosecuted in

23

retribution for exercising their First Amendment Rights.” (Complaint at ¶ 30.) It is unclear

24

whether Plaintiffs’ claims are predicated on a malicious prosecution theory or a retaliatory

25

prosecution theory or both. To prevail on a section 1983 malicious prosecution claim a plaintiff

26

must prove that criminal proceedings were instituted with malice, without probable cause, and for

27

the purpose of denying the plaintiff a specific constitutional right. Freeman v. City of Santa Ana,

28

68 F.3d 1180, 1189 (9th Cir. 1995). The claim “requires ‘the institution of criminal proceedings
5

26

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 6 of 13

1

against another who is not guilty of the offense charged’ and that ‘the proceedings have terminated

2

in favor of the accused.’” Lacey v. Maricopa Cty., 693 F.3d 896, 919 (9th Cir. 2012) (quoting

3

Restatement (Second) of Torts § 653 (1977)). A Section 1983 retaliatory prosecution claim

4

requires a showing of a “‘retaliatory motive on the part of an official urging prosecution combined

5

with an absence of probable cause supporting the prosecutor’s decision.’” Beck v. City of Upland,

6

527 F.3d 853, 865 (9th Cir. 2008) (quoting Hartman v. Moore, 547 U.S. 250, 265 (2006)).
Defendants insist that Plaintiffs’ claims predicated on either a malicious prosecution or

United States District Court
Northern District of California

7
8

retaliatory prosecution theory fail because: (1) Plaintiffs have not alleged facts that plausibly

9

suggest than any defendant, let alone all of the defendants, caused the District Attorney to bring

10

charges against them in retaliation for the exercise of their First Amendment rights or for other

11

reasons, and (2) the underlying criminal charges were supported by probable cause as a matter of

12

law.

13

1) Allegations Tying Defendants to the Prosecution

14

Whether Plaintiffs bring a retaliatory prosecution claim or a malicious prosecution claim,

15

Plaintiffs must tie the claim to each defendant’s conduct. In particular, Plaintiffs must allege facts

16

that support a plausible inference that each defendant “improperly exerted pressure on the

17

prosecutor, knowingly provided misinformation to him, concealed exculpatory evidence, or

18

otherwise engaged in wrongful or bad faith conduct that was actively instrumental in causing the

19

initiation of legal proceedings.” Awabdy v. City of Adelanto, 368 F.3d 1062, 1067 (9th Cir. 2004);

20

see also Beck, 527 F.3d at 865 (holding that a retaliatory prosecution claim requires a showing of a

21

“retaliatory motive on the part of an official urging prosecution combined with an absence of

22

probable cause supporting the prosecutor’s decision”).

23

Here, Plaintiffs allege that following the settlement of the Brown Act claim, “Defendants

24

trumped up a raft of specious accusations, and caused a criminal prosecution to be commenced

25

against both Dillard and Daniels,” that the District Attorney prosecuting the case was “proceeding

26

under intense political pressure from the Board of Supervisors,” and that during the trial

27

“Defendants drummed up publicity, and Dillard and Daniels were portrayed in the press and

28

media as crooks.” (Complaint at ¶¶ 15, 17, 28.) These allegations are insufficient to show that
6

27

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 7 of 13

1

Defendants—of whom there are 7 individuals in addition to the County and Board of

2

Supervisors—caused the District Attorney to bring criminal charges against Plaintiffs.

United States District Court
Northern District of California

3

First, “[w]here a complaint pleads facts that are merely consistent with a defendant’s

4

liability, it stops short of the line between possibility and plausibility of entitlement to relief.”

5

Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (“A claim has facial plausibility when the plaintiff

6

pleads factual content that allows the court to draw the reasonable inference that the defendant is

7

liable for the misconduct alleged.”); Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)

8

(“Factual allegations must be enough to raise a right to relief above the speculative level.”).

9

Plaintiffs have not alleged any facts—as opposed to conclusions--that support a plausible

10

inference that Defendants were responsible for the prosecution. Second, Plaintiffs improperly

11

group all of the defendants together and do not include allegations specific to each defendant to

12

support a plausible inference of each defendant’s liability. See Leer v. Murphy, 844 F.2d 628, 633

13

(9th Cir. 1988); see also Gressett v. Contra Costa Cty., No. C-12-3798 EMC, 2013 WL 2156278,

14

at *15 (N.D. Cal. May 17, 2013) (the plaintiff must “please sufficient facts to hold each Individual

15

Defendant liable for malicious prosecution”).

16

To the extent Plaintiffs seek to supplement their allegations through the declarations

17

submitted with their opposition brief, at the motion to dismiss stage the Court cannot consider

18

evidence outside the pleadings without converting the motion into a summary judgment motion.

19

See Gerritsen v. Warner Bros. Ent. Inc., 112 F. Supp. 3d 1011, 1021 (C.D. Cal. 2015) (“Courts

20

regularly decline to consider declarations and exhibits submitted in ... opposition to a motion to

21

dismiss ... if they constitute evidence not referenced in the complaint or not a proper subject of

22

judicial notice.”). Further, Plaintiffs’ insistence that the Court cannot dismiss this claim without

23

allowing discovery because it involves information under Defendants’ control is misplaced. “The

24

Twombly plausibility standard ... does not prevent a plaintiff from pleading facts alleged upon

25

information and belief where the facts are peculiarly within the possession and control of the

26

defendant or where the belief is based on factual information that makes the inference of

27

culpability plausible.” Park v. Thompson, 851 F.3d 910, 928-29 (9th Cir. 2017) (quoting Arista

28

Records, LLC v. Doe 3, 604 F.3d 110, 120 (2d Cir. 2010)); see also Menzel v. Scholastic, Inc., No.
7

28

United States District Court
Northern District of California

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 8 of 13

1

17-CV-05499-EMC, 2018 WL 1400386, at *3 (N.D. Cal. Mar. 19, 2018) (noting that even where

2

the evidence is within the defendant’s control, plaintiff still must allege specific facts which on

3

information and belief make the inference of culpability plausible). Plaintiffs’ conclusory

4

allegations fail to support a plausible inference that any particular defendant was instrumental in or

5

actively encouraged Plaintiffs’ prosecution. The motion to dismiss must be granted must be

6

granted for this reason alone.

7

2) Probable Cause

8

“[A] plaintiff alleging a retaliatory prosecution must show the absence of probable cause

9

for the underlying criminal charge. If there was probable cause, the case ends.” Lozman v. City of

10

Riviera Beach, Fla., 138 S. Ct. 1945, 1952 (2018) (citing Hartman v. Moore, 547 U.S. 250, 265-

11

66 (2006)); see also Nieves v. Bartlett, 139 S. Ct. 1715, 1726 (2019) (“It has long been “settled

12

law” that retaliatory prosecution requires proving “the want of probable cause”). The same

13

probable cause analysis applies to a section 1983 malicious prosecution claim. See Awabdy, 368

14

F.3d 1062, 1066 (9th Cir. 2004) (“to prevail on a § 1983 claim of malicious prosecution, a plaintiff

15

‘must show that the defendants prosecuted [him] with malice and without probable cause...’”

16

(citation omitted)).

17

Defendants argue that Plaintiffs cannot satisfy the absence of probable cause element as a

18

matter of law because they were required to go to trial on all charges and were convicted of certain

19

offenses. “[W]e look to California law to determine the legal effect of the state court’s action

20

because we have incorporated the relevant elements of the common law tort of malicious

21

prosecution into our analysis under § 1983.” Awabdy, 368 F.3d at 1066. “In California, as in

22

virtually every other jurisdiction, it is a long-standing principle of common law that a decision by

23

a judge or magistrate to hold a defendant to answer after a preliminary hearing constitutes prima

24

facie—but not conclusive—evidence of probable cause.” Id. at 1067 (collecting cases). A

25

plaintiff can rebut a “finding of probable cause [] by showing that the criminal prosecution was

26

induced by fraud, corruption, perjury, fabricated evidence, or other wrongful conduct undertaken

27

in bad faith.” Id. Where, however, “a trier of fact after a fair adversary hearing reach[ed] a

28

determination on the merits against the defendant in the prior proceeding” there is a “conclusive
8

29

United States District Court
Northern District of California

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 9 of 13

1

presumption of probable cause” and “the defendant in that proceeding may not thereafter institute

2

an action for malicious prosecution, whether the matter was criminal or civil, even though he

3

shows that the determination in question was reversed on appeal or set aside by the trial judge.”

4

Cowles v. Carter, 115 Cal. App. 3d 350, 358 (1981); see also Norton v. John M.C. Marble Co., 30

5

Cal.App.2d 451, 454-55 (1939) (holding that a conviction establishes probable cause). The only

6

exception to this conclusive presumption is where the conviction is obtained by means of fraud or

7

perjury. Cowles, 115 Cal. App. 3d at 358; see also Plumley v. Mockett, 164 Cal. App. 4th 1031,

8

1053 (2008) (collecting cases re: the same); Rest.2d Torts, § 667(1) [“The conviction of the

9

accused by a magistrate or trial court, although reversed by an appellate tribunal, conclusively

10

establishes the existence of probable cause, unless the conviction was obtained by fraud, perjury or

11

other corrupt means”].).
a) Probable Cause for the Convicted Counts

12
13

Plaintiffs’ convictions for theft by false pretenses and making a false account of public

14

moneys, and Ms. Dillard’s additional conviction of preparing false documentary evidence

15

conclusively establish probable cause. See Plumley, 164 Cal. App. 4th at 1053 (“[V]ictory at trial

16

. . . conclusively establishes probable cause to bring the underlying action”); see also Cowles, 115

17

Cal. App. 3d at 358; Norton, 30 Cal. App. 2d at 454-55. Plaintiffs do not allege that their

18

convictions were obtained through fraud or perjury, nor do they suggest that they can so allege;

19

instead, relying on the Ninth Circuit’s decision in Awabdy and the United States Supreme Court’s

20

decision in Hartman they argue that probable cause is not established merely because an

21

individual is “held to answer.” Plaintiffs’ reliance on these cases is misplaced as neither involves

22

a conviction.

23

In Awabdy, the plaintiff was charged with embezzlement and held to answer following a

24

preliminary hearing. Before the plaintiff was tried, the district attorney dismissed the charges in

25

the interests of justice. The plaintiff subsequently sued for malicious prosecution. The district

26

court dismissed the complaint on the grounds that the trial court’s decision to require the plaintiff

27

to answer the charges following a preliminary hearing conclusively established probable cause and

28

therefore the plaintiff could not prove the absence of probable cause. The Ninth Circuit reversed,
9

30

United States District Court
Northern District of California

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 10 of 13

1

concluding that the plaintiff being held to answer after preliminary hearing was only prima facie

2

proof of probable cause and thus would “not prevent him from maintaining his § 1983 malicious

3

prosecution claim if he is able to prove the allegations in his complaint that the criminal

4

proceedings were initiated on the basis of the defendants’ intentional and knowingly false

5

accusations and other malicious conduct.” Awabdy, 368 F.3d at 1066. Likewise, in Hartman,

6

which was decided two years later, the charges against the plaintiff were dismissed at the close of

7

the government’s case based on a “‘complete lack of direct evidence’ connecting the defendants to

8

any of the criminal wrongdoing alleged.” Hartman, 547 U.S. at 254. Here, in contrast, Plaintiffs

9

were convicted of three of the counts on which they were charged. Under California law, their

10

convictions conclusively establish the existence of probable cause for the prosecution for theft by

11

false pretenses and making a false account of public moneys, and Ms. Dillard’s additional charge

12

of preparing false documentary evidence. See Plumley, 164 Cal. App. 4th at 1053; Cowles, 115

13

Cal. App. 3d at 358; Norton, 30 Cal. App. 2d at 454-55.

14

That Mr. Daniels’ convictions on both the counts on which he was convicted and Ms.

15

Dillard’s convictions on two of three counts on which she was convicted were reversed on appeal

16

does not undermine the conclusive existence of probable cause. The rule under California law is

17

that “a victory at trial, though reversed on appeal, conclusively establishes probable cause to

18

bring the underlying action.” Plumley, 164 Cal. App. 4th at 1052 (referring to the principle as the

19

“‘interim adverse judgment’ rule”) (emphasis added). “‘The rationale is that approval by the trier

20

of fact, after a full adversary hearing, sufficiently demonstrates that an action was legally

21

tenable.’” Id. (quoting Cowles, 115 Cal. App. 3d at 358). “To put it differently, success at trial

22

shows that the suit was not among the least meritorious of meritless suits, those which are totally

23

meritless and thus lack probable cause.” Id. (internal quotation marks and citation omitted); see

24

also Cowles, 115 Cal. App. 3d at 355 (1981) (“In the event the plaintiff in the prior action obtains

25

judgment after trial, such judgment is, unless procured by fraud, conclusive proof that the

26

proceedings were prosecuted with probable cause, notwithstanding the fact that the judgment is

27

reversed on appeal.”) (emphasis added); Norton, 30 Cal. App. 2d at 454 (“a final judgment duly

28

rendered after trial on the merits, in a court having complete jurisdiction, adverse to the defendant
10

31

United States District Court
Northern District of California

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 11 of 13

1

in the proceedings in which the judgment is rendered, is, unless procured by fraud which may be

2

either extrinsic or intrinsic, conclusive proof that the proceedings were prosecuted with probable

3

cause, notwithstanding the fact that the judgment is reversed on appeal.”) (emphasis added).

4

Plaintiffs’ urging that a reversal based on federal preemption should eliminate the conclusive

5

presumption of probable cause is not supported by any law—statutory, common, or other.

6

Plaintiffs’ suggestion that Hartman rejected the notion that state law probable cause

7

requirements should be imported into section 1983 retaliatory prosecution claims is unpersuasive.

8

Hartman did not so hold—and Plaintiffs can point to no case interpreting it in that manner.

9

Instead, Hartman emphasized the importance of the probable cause requirement: “Because

10

showing an absence of probable cause will have high probative force, and can be made mandatory

11

with little or no added cost, it makes sense to require such a showing as an element of a plaintiff’s

12

case, and we hold that it must be pleaded and proven.” 547 U.S. at 265-66. Similarly, Nieves v.

13

Bartlett, 139 S.Ct. 1715 (2019), also did not hold that probable cause for a retaliatory prosecution

14

section 1983 claim is determined by federal common law rather than state law. In any event,

15

Plaintiffs have not cited any federal common law, or any state’s law for that matter, that is

16

contrary to California’s probable cause rules.

17

Plaintiffs’ contention that Heck v. Humphrey, 512 U.S. 477 (1994), holds that reversal on

18

direct appeal negates probable cause for purposes of a section 1983 action is equally unavailing.

19

Heck bars suits “based on theories that ‘necessarily imply the invalidity of [the plaintiff’s]

20

convictions or sentences.’” Cunningham v. Gates, 312 F.3d 1148, 1153-54 (9th Cir. 2003) (as

21

amended) (quoting Heck, 512 U.S. at 487). If success on the section 1983 claim would imply the

22

invalidity of the conviction or sentence, then the plaintiff cannot proceed with the claim unless and

23

until “the conviction or sentence has been reversed on direct appeal, expunged by executive order,

24

declared invalid by a state tribunal authorized to make such determination, or called into question

25

by a federal court’s issuance of a writ of habeas corpus, 28 U.S.C. § 2254.” Heck, 512 U.S. at

26

486–87 (1994). Heck did not address whether a subsequently overturned conviction defeats a

27

finding of a probable cause.

28

Finally, Nieves did not recognize an exception to the no-probable cause rule for retaliatory11

32

United States District Court
Northern District of California

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 12 of 13

1

prosecution section 1983 cases. To the contrary, Nieves adopted the no-probable cause rule from

2

retaliatory prosecution cases into retaliatory-arrest cases, with one narrow exception. 139 S.Ct. at

3

1725, 1727. As this is not a retaliatory-arrest case, Nieves does not apply.

4

Accordingly, Plaintiffs’ convictions for theft by false pretenses and making a false account

5

of public monies, and Ms. Dillard’s additional conviction of preparing false documentary evidence

6

preclude them from establishing a lack of probable cause for these counts and Plaintiffs’ Section

7

1983 claim based on these charges—whether predicated on a malicious prosecution or retaliatory

8

conviction theory—must be dismissed. As explained above, the only exception to the conclusive

9

presumption of probable cause is if Plaintiffs can plead and prove that their convictions were

10

obtained by fraud. There is nothing in the Court of Appeals decision that would even remotely

11

support such allegations. Nonetheless, the Court will grant Plaintiffs leave to amend to so allege,

12

but only if such allegations can be made consistent with Federal Rule of Civil Procedure 11.

13
14

b) Probable Cause for Acquitted Counts
Plaintiffs next argue that even if they cannot prove an absence of probable cause for those

15

counts on which they were convicted, any presumption of probable cause is rebuttable for those

16

counts on which they were acquitted. “In California, as in virtually every other jurisdiction, it is a

17

long-standing principle of common law that a decision by a judge or magistrate to hold a

18

defendant to answer after a preliminary hearing constitutes prima facie—but not conclusive—

19

evidence of probable cause.” Awabdy, 368 F.3d at 1067 (collecting cases re: same). “[A] plaintiff

20

can rebut a prima facie finding of probable cause by showing that the criminal prosecution was

21

induced by fraud, corruption, perjury, fabricated evidence, or other wrongful conduct undertaken

22

in bad faith.” Id. Plaintiffs’ complaint fails to allege specific facts which plausibly support an

23

inference that the criminal prosecution on the counts for which they were held over but acquitted

24

was “induced by fraud, corruption, perjury, fabricated evidence, or other wrongful conduct

25

undertaken in bad faith.” Plaintiffs’ suggestion that the “retaliatory motive” itself is the wrongful

26

conduct does not make sense. As Hartman noted, “a retaliatory motive on the part of an official

27

urging prosecution combined with an absence of probable cause supporting the prosecutor’s

28

decision to go forward are reasonable grounds to suspend the presumption of regularity behind the
12

33

Case 3:19-cv-00602-JSC Document 48 Filed 07/10/19 Page 13 of 13

1

charging decision.” 547 U.S. at 265. Under Plaintiffs’ theory, the retaliatory motive itself would

2

be sufficient, a theory Hartman expressly rejected. Accordingly, Plaintiffs will be granted leave to

3

amend to the extent that they can makes factual allegations that plausibly rebut the prima facie

4

showing of probable cause as to those counts on which they were acquitted.

5

3)

6

As the Court is dismissing Plaintiffs’ Section 1983 Claim in its entirety for the reasons

United States District Court
Northern District of California

7

Other Section 1983 Arguments

explained above, it declines to address Defendants’ additional arguments at this time.
Plaintiffs’ State Law Claims

8

B.

9

In addition to their Section 1983 claim, Plaintiffs plead state law claims for malicious

10

prosecution, violation of the Bane Act, Cal. Civ. Code § 52.1, and intentional infliction of

11

emotional distress. The Court declines to address these claims until it determines if the federal

12

claim, which gives rise this Court’s subject matter jurisdiction, can proceed past the pleading

13

stage. See United Mine Works v. Gibbs, 383 U.S. 715, 726 (1966).
CONCLUSION

14
15

For the reasons stated above, Defendants’ motion to dismiss is GRANTED as to Plaintiffs’

16

Section 1983 claim with leave to amend. The Court denies the motion to dismiss the state law

17

claims without prejudice to the motion being renewed as to the state law claims in a subsequent

18

motion to dismiss.

19

Plaintiffs shall file their amended complaint, if any, within 30 days of this Order.

20

This Order disposes of Docket No. 28.

21

IT IS SO ORDERED.

22

Dated: July 10, 2019

23
24
JACQUELINE SCOTT CORLEY
United States Magistrate Judge

25
26
27
28
13

34

Opinion of the District Court
Dismissing Case Without Leave
to Amend

35

Case 3:19-cv-00602-JSC Document 60 Filed 12/02/19 Page 1 of 10

1
2
3
4
5

UNITED STATES DISTRICT COURT

6

NORTHERN DISTRICT OF CALIFORNIA

7
PAUL S. DANIELS, et al.,

8

Plaintiffs,

9

ORDER RE: DEFENDANTS’ MOTION
TO DISMISS AND STRIKE FIRST
AMENDED COMPLAINT

v.

10

ALAMEDA COUNTY, et al.,

11
United States District Court
Northern District of California

Case No. 19-cv-00602-JSC

Re: Dkt. No. 54

Defendants.

12
13

Paul Daniels and Nanette Dillard allege that they were prosecuted by the Alameda County

14
15

District Attorneys’ Office in retaliation for exercising their First Amendment rights. The Court

16

previously granted Defendants’ motion to dismiss Plaintiffs’ Section 1983 malicious and

17

retaliatory prosecution claim because Plaintiffs had not plausibly alleged that each defendant

18

caused Plaintiffs’ prosecution or that there was an absence of probable cause for their prosecution.

19

(Dkt. No. 48.) In response to Plaintiffs’ First Amended Complaint, Defendants have again moved

20

to dismiss under Federal Rule of Civil Procedure 12(b)(6) and to strike the state law claims under

21

California Code of Civil Procedure § 425.16, the anti-Strategic Lawsuits Against Public

22

Participation (anti-SLAPP) statute.1 (Dkt. No. 54.) Having considered the parties’ briefs and

23

having had the benefit of oral argument on November 21, 2019, the Court GRANTS Defendants’

24

motion to dismiss without leave to amend. Plaintiffs have failed to cure the pleading defects in

25

their First Amended Complaint.

26

//

27
28

1

All parties have consented to the jurisdiction of a magistrate judge pursuant to 28 U.S.C. §
636(c). (Dkt. Nos. 7 & 9.)

36

Case 3:19-cv-00602-JSC Document 60 Filed 12/02/19 Page 2 of 10

DISCUSSION

1
2
3

question, however, is whether Plaintiffs have adequately pled their malicious and retaliatory

4

prosecution Section 1983 claims and cured the pleading defects identified in the Court’s prior

5

Order. Because they have not, the Court need not and does not address Defendants’ other

6

arguments.

7

A. Section 1983 Malicious and Retaliatory Prosecution Claims

8

United States District Court
Northern District of California

Defendants move to dismiss Plaintiffs’ claims on multiple grounds. The threshold

To prevail on a section 1983 malicious prosecution claim a plaintiff must prove that

9

criminal proceedings were instituted with malice, without probable cause, and for the purpose of

10

denying the plaintiff a specific constitutional right. Freeman v. City of Santa Ana, 68 F.3d 1180,

11

1189 (9th Cir. 1995). The claim “requires ‘the institution of criminal proceedings against another

12

who is not guilty of the offense charged’ and that ‘the proceedings have terminated in favor of the

13

accused.’” Lacey v. Maricopa Cty., 693 F.3d 896, 919 (9th Cir. 2012) (quoting Restatement

14

(Second) of Torts § 653 (1977)). A Section 1983 retaliatory prosecution claim requires a showing

15

of a “‘retaliatory motive on the part of an official urging prosecution combined with an absence of

16

probable cause supporting the prosecutor’s decision.’” Beck v. City of Upland, 527 F.3d 853, 865

17

(9th Cir. 2008) (quoting Hartman v. Moore, 547 U.S. 250, 265 (2006)).

18

The Court’s prior order examined Plaintiffs’ malicious and retaliatory prosecution claims

19

in detail. The claims were dismissed because (1) Plaintiffs had not adequately tied their

20

allegations to misconduct by any particular defendant, and (2) Plaintiffs had not adequately

21

alleged an absence of probable cause. The same defects remain.

22

1) Allegations Tying Defendants to the Prosecution

23

To state either a malicious or retaliatory prosecution claim, Plaintiffs must allege facts that

24

support a plausible inference that each defendant “improperly exerted pressure on the prosecutor,

25

knowingly provided misinformation to him, concealed exculpatory evidence, or otherwise

26

engaged in wrongful or bad faith conduct that was actively instrumental in causing the initiation of

27

legal proceedings.” Awabdy v. City of Adelanto, 368 F.3d 1062, 1067 (9th Cir. 2004); see also

28

Beck, 527 F.3d at 865 (holding that a retaliatory prosecution claim requires a showing of a
2

37

Case 3:19-cv-00602-JSC Document 60 Filed 12/02/19 Page 3 of 10

1

“retaliatory motive on the part of an official urging prosecution combined with an absence of

2

probable cause supporting the prosecutor’s decision”); Leer v. Murphy, 844 F.2d 628, 633 (9th

3

Cir. 1988); see also Gressett v. Contra Costa Cty., No. C-12-3798 EMC, 2013 WL 2156278, at

4

*15 (N.D. Cal. May 17, 2013) (the plaintiff must “plead sufficient facts to hold each Individual

5

Defendant liable for malicious prosecution”).

United States District Court
Northern District of California

6

Plaintiffs’ amended complaint fails allege facts sufficient to show that each of the named

7

defendants—Alameda County, the Alameda County Auditor-Controller Agency, the Alameda

8

County Board of Supervisors, Nate Miley, Scott Haggerty, and Patrick O’Connell—“engaged in

9

wrongful or bad faith conduct that was actively instrumental in causing the initiation of legal

10

proceedings.” Awabdy, 368 F.3d at 1067. With respect to Defendants Miley and Haggerty,

11

Plaintiffs (1) quote a news article stating that “Scott Haggerty says he has spoken to the District

12

Attorney’s office about a criminal investigation into Dillard’s involvement in allegedly bilking

13

ACAP,” and (2) allege that “Miley and Haggerty were both exerting political pressure upon the

14

District Attorney’s Office to find something for which Dillard could be prosecuted.” (FAC at ¶

15

18.) The “mere allegation” that Mr. Haggerty had a conversation with the District Attorney a year

16

before Plaintiffs was charged does not plausibly suggest that the District Attorney brought the

17

charges because of what Mr. Haggerty said. See Bala v. Stenehjem, 671 F. Supp. 2d 1067, 1096

18

(D.N.D. 2009) (“the mere allegation that former United States Attorney Wrigley met with law

19

enforcement officials, state authorities, and the IRS does not suggest plausible illicit activity.”).

20

Similarly, the “bare allegation” that Mr. Miley and Mr. Haggerty were exerting political pressure

21

on the District Attorney to bring charges is a conclusory statement that is “little more than a

22

formulaic recitation of the elements.” Ashcroft v. Iqbal, 556 U.S. 662, 681 (2009); see also Riley

23

v. City of Richmond, No. C 13-4752 MMC, 2014 WL 1101036, at *2 (N.D. Cal. Mar. 18, 2014)

24

(finding that “plaintiff’s conclusory allegations that ‘the case lacked probable cause for

25

prosecution’ [] and that defendants ‘provided misinformation’ to and ‘concealed exculpatory

26

evidence’ from the prosecutor [], are insufficient as a matter of law”).

27
28

Nor have Plaintiffs included specific allegations which tie Alameda County, the Alameda
County Board of Supervisors, the Alameda County Auditor-Controller Agency, and Patrick
3

38

United States District Court
Northern District of California

Case 3:19-cv-00602-JSC Document 60 Filed 12/02/19 Page 4 of 10

1

O’Connell to the alleged wrongful prosecution. Indeed, for Defendants the Alameda County

2

Auditor-Controller Agency and Patrick O’Connell, the only allegation as to them has nothing do

3

with the District Attorney and instead is that they “created a fraudulent accounting purporting to

4

verify that ACAP lacked funds to go forward” so that Mr. Miley and Mr. Haggerty could

5

dismantle ACAP and dismiss all its employees including Mr. Daniels. (FAC at ¶ 17.) Similarly,

6

while there are numerous allegations with respect to Alameda County and the Alameda County

7

Board of Supervisors, there are no allegations which tie these entities’ actions to Plaintiffs’

8

prosecution except for the allegation that an “Alameda County representative” threatened Ms.

9

Dillard at the mediation of her Brown Act case that if she did not refund the settlement payment

10

she and Mr. Daniels would be prosecuted. (FAC at ¶ 27.) This vague allegation that an unnamed

11

Alameda County representative threatened Ms. Dillard does not plausibly support an inference

12

that the Alameda County Board of Supervisors or Alameda County caused the District Attorney’s

13

Office to bring charges two weeks later—two months before the Brown Act case settled. (Id. at ¶

14

29.)

15
16

Plaintiffs have therefore again failed to allege a plausible basis for liability as to any
Defendant.

17

2) Absence of Probable Cause

18

“[A] plaintiff alleging a retaliatory prosecution must show the absence of probable cause

19

for the underlying criminal charge. If there was probable cause, the case ends.” Lozman v. City of

20

Riviera Beach, Fla., 138 S. Ct. 1945, 1952 (2018) (citing Hartman v. Moore, 547 U.S. 250, 265-

21

66 (2006)); see also Nieves v. Bartlett, 139 S. Ct. 1715, 1726 (2019) (“It has long been “settled

22

law” that retaliatory prosecution requires proving “the want of probable cause”). The same

23

probable cause analysis applies to a section 1983 malicious prosecution claim. See Awabdy, 368

24

F.3d at 1066 (“to prevail on a § 1983 claim of malicious prosecution, a plaintiff ‘must show that

25

the defendants prosecuted [him] with malice and without probable cause...’” (citation omitted)).

26

As a threshold matter, Plaintiffs insist that the probable cause determination is based on

27

federal law rather than state law. The Court, however, already considered and rejected this

28

argument in its prior order. Plaintiffs’ suggestion that the Ninth Circuit meant something other
4

39

United States District Court
Northern District of California

Case 3:19-cv-00602-JSC Document 60 Filed 12/02/19 Page 5 of 10

1

than what it said when it stated “[w]e look to California law to determine the legal effect of the

2

state court’s action because we have incorporated the relevant elements of the common law tort of

3

malicious prosecution into our analysis under § 1983,” Awabdy v. City of Adelanto, 368 F.3d

4

1062, 1066 (9th Cir. 2004), is without support. And indeed, less than six months ago, the Ninth

5

Circuit restated this rule in Mills v. City of Covina, 921 F.3d 1161, 1169 (9th Cir. 2019), cert.

6

denied sub nom. Mills v. Covina, CA, No. 19-321, 2019 WL 5150535 (U.S. Oct. 15, 2019)

7

(stating that “Federal courts rely on state common law for elements of malicious prosecution.”).

8

This Court is bound by the Ninth Circuit and Plaintiffs’ reliance on the Eleventh Circuit’s decision

9

in Blue v. Lopez, 901 F.3d 1352 (11th Cir. 2018), is thus unpersuasive. Likewise, the Court

10

squarely rejected Plaintiffs’ argument that the Supreme Court in Hartman somehow overruled

11

Awabdy and Plaintiffs have provided no reason to reconsider this holding. Accordingly,

12

California law governs whether probable cause supports Plaintiffs’ convictions.

13

“In California, as in virtually every other jurisdiction, it is a long-standing principle of

14

common law that a decision by a judge or magistrate to hold a defendant to answer after a

15

preliminary hearing constitutes prima facie—but not conclusive—evidence of probable cause.”

16

Awabdy, 368 F.3d at 1067 (collecting cases). A plaintiff can rebut a “finding of probable cause []

17

by showing that the criminal prosecution was induced by fraud, corruption, perjury, fabricated

18

evidence, or other wrongful conduct undertaken in bad faith.” Id. Where, however, “a trier of fact

19

after a fair adversary hearing reach[ed] a determination on the merits against the defendant in the

20

prior proceeding” there is a “conclusive presumption of probable cause” and “the defendant in that

21

proceeding may not thereafter institute an action for malicious prosecution, whether the matter

22

was criminal or civil, even though he shows that the determination in question was reversed on

23

appeal or set aside by the trial judge.” Cowles v. Carter, 115 Cal. App. 3d 350, 358 (1981); see

24

also Norton v. John M.C. Marble Co., 30 Cal.App.2d 451, 454-55 (1939) (holding that a

25

conviction establishes probable cause). The only exception to this conclusive presumption is

26

where the conviction is obtained by means of fraud or perjury. Cowles, 115 Cal. App. 3d at 358;

27

see also Plumley v. Mockett, 164 Cal. App. 4th 1031, 1053 (2008) (collecting cases re: the same);

28

Rest.2d Torts, § 667(1) [“The conviction of the accused by a magistrate or trial court, although
5

40

Case 3:19-cv-00602-JSC Document 60 Filed 12/02/19 Page 6 of 10

1

reversed by an appellate tribunal, conclusively establishes the existence of probable cause, unless

2

the conviction was obtained by fraud, perjury or other corrupt means”].).
Because Plaintiffs were convicted of some counts and acquitted of others, the Court must

3
4

engage in separate analysis of each.
a) Probable Cause for Convicted Counts

5

Plaintiffs were convicted of grand theft by false pretenses for unlawfully taking grant funds

United States District Court
Northern District of California

6
7

from DHHS (Count 2) and making a false account of public moneys by signing and sending false

8

and inaccurate letters to DHHS (Count 3), and Ms. Dillard was separately convicted of preparing

9

false and ante-dated documentary evidence by preparing a memoranda regarding the residency

10

status of agency clients and an agenda of a seminar at a hotel (Count 6). (FAC, Ex. A, Dkt. No. 51

11

at 26.). Their convictions conclusively establish probable cause. See Plumley, 164 Cal. App. 4th

12

at 1053 (“[V]ictory at trial. . . conclusively establishes probable cause to bring the underlying

13

action”); see also Cowles, 115 Cal. App. 3d at 358; Norton, 30 Cal. App. 2d at 454-55. Thus,

14

Plaintiffs can only show that these convictions lacked probable cause if they were obtained by

15

fraud or perjury.
Plaintiffs advance two arguments.2 First, Plaintiffs contend—as they did in response to the

16
17

prior motion to dismiss—that the convictions are invalid or void because they violated the

18

Supremacy Clause. However, Plaintiffs’ argument that a reversal based on federal preemption

19

eliminates the otherwise conclusive presumption of probable cause is not supported by the law.

20

See Plumley, 164 Cal. App. 4th at 1052; see also Cowles, 115 Cal. App. 3d at 355 (1981) (“In the

21

event the plaintiff in the prior action obtains judgment after trial, such judgment is, unless

22

procured by fraud, conclusive proof that the proceedings were prosecuted with probable cause,

23

notwithstanding the fact that the judgment is reversed on appeal.”) (emphasis added); Norton, 30

24

Cal. App. 2d at 454 (“a final judgment duly rendered after trial on the merits, in a court having

25

complete jurisdiction, adverse to the defendant in the proceedings in which the judgment is

26

rendered, is, unless procured by fraud which may be either extrinsic or intrinsic, conclusive proof

27
28

2

Plaintiffs make no argument regarding Ms. Dillard’s conviction on Count 6.
6

41

Case 3:19-cv-00602-JSC Document 60 Filed 12/02/19 Page 7 of 10

1

that the proceedings were prosecuted with probable cause, notwithstanding the fact that the

2

judgment is reversed on appeal.”) (emphasis added).

United States District Court
Northern District of California

3

Second, Plaintiffs insist that Defendants fraudulently manufactured the theft by false

4

pretenses and making a false account of public moneys counts, both of which related to the use of

5

the AFI grant funds. In particular, Plaintiffs allege that Mr. Ambrose “acting under directions

6

from Haggerty, Miley, and the Alameda Board of Supervisors, refused to cooperate with DHHS to

7

adjust the status of the AFI grant, and instead deliberately caused DHHS to issue a deficiency

8

notice, so that the deficiency notice could be used as a tool to craft a state law theft cause of action

9

against Dillard and Daniels, in violation of federal DHHS policies and federal regulations.” (FAC

10

at ¶ 21.) However, Plaintiffs do not dispute that they drew down the AFI grant fund or that they

11

made a false accounting to DHHS; instead, Plaintiffs allege that Defendants—after the draw down

12

and after their termination—refused to work with DHHS to fix the problems with the AFI grant

13

despite the fact that DHHS’s own internal operating procedures and the AFI grant regulations

14

required the agency to “work with grantee ACAP to adjust accounting to bring the grant into

15

compliance.” (Id.) These allegations do not plausibly support an inference that the convictions

16

related to Plaintiffs’ use of the AFI funds were procured by fraud; indeed, according to the FAC,

17

the trial judge excluded evidence “of the propriety of the county’s interference with the federal

18

Department of Health and Human Services’ administration of its grant program.” (Id. at ¶ 32.)

19

What Defendants did after Plaintiffs committed the acts which led to their convictions does not

20

plausibly support an inference that Plaintiffs’ convictions were obtained by fraud.

21
22

b) Probable Cause for Acquitted Counts
Plaintiffs were acquitted of two charges: (1) conspiracy to commit grand theft by false

23

pretenses for submitting a false certification to DHHS (Count 1), and (2) using public moneys for

24

a purpose not authorized by law; namely improperly using over $280,000 of funds intended for a

25

DHHS grant program to fund agency payroll and other expenses (Count 4). (Dkt. No. 51 at 26.)

26

Ms. Dillard was also acquitted of appropriating money for her own use by instructing employees

27

to work on her personal residence at below-market rates and obtaining reimbursement for

28

improper business expenses (Count 5). (Id.)
7

42

Case 3:19-cv-00602-JSC Document 60 Filed 12/02/19 Page 8 of 10

“In California, as in virtually every other jurisdiction, it is a long-standing principle of

United States District Court
Northern District of California

1
2

common law that a decision by a judge or magistrate to hold a defendant to answer after a

3

preliminary hearing constitutes prima facie—but not conclusive—evidence of probable cause.”

4

Awabdy, 368 F.3d at 1067 (collecting cases re: same). “[A] plaintiff can rebut a prima facie

5

finding of probable cause by showing that the criminal prosecution was induced by fraud,

6

corruption, perjury, fabricated evidence, or other wrongful conduct undertaken in bad faith.” Id.

7

Thus, the question is whether Plaintiffs have alleged facts sufficient to support a plausible

8

inference that their criminal prosecutions for Counts 1, 4, and 5 were induced by fraud, corruption,

9

perjury, fabricated evidence, or other wrongful conduct undertaken in bad faith.

10

Plaintiffs’ only argument with respect to Count 4 is that it is void because it violated the

11

Supremacy Clause. The Court has already considered and rejected this argument, supra. With

12

respect to Count 1, Plaintiffs allege that to induce the District Attorney to file this count

13

“Defendants misled the District Attorney to believe that Paul Daniels had stolen a computer from

14

ACAP, altered data, and then returned the computer to ACAP.” (FAC at ¶ 30.) However, Count

15

1 was for conspiracy to commit grand theft by false pretenses for submitting a false certification to

16

DHHS regarding the availability of non-federal match funds in a Citibank account. (Dkt. No. 51

17

at 25-26.) Plaintiffs offer no explanation as to how the false accusation that Mr. Daniels stole a

18

computer led to Count 1 which related to the availability of funds in a Citibank account. Plaintiffs

19

have thus not alleged facts that support a plausible inference that the Count 1 charge was induced

20

by fraud, corruption, perjury, fabricated evidence, or other wrongful conduct undertaken in bad

21

faith.

22

As for Count 5, which charged Ms. Daniels with appropriating public money for her own

23

use “by instructing employees to work on her personal residence at below-market rates and

24

obtaining reimbursement for improper business expenses,” (Dkt. No. 15-2 at 20), Plaintiffs allege

25

“Defendants induced the District Attorney to file this meritless charge by supplying a

26

reimbursement receipt that had been altered and then duplicated at the Alameda County Auditor-

27

Controller Agency.” (FAC at ¶ 30.) Aside from Plaintiffs’ failure to identify any particular

28

Defendant who supplied the receipt, they do not make any allegations regarding the receipt that
8

43

Case 3:19-cv-00602-JSC Document 60 Filed 12/02/19 Page 9 of 10

1

would support an inference that it was material to the charging decision. See Blankenhorn v. City

2

of Orange, 485 F.3d 463, 482 (9th Cir. 2007). Plaintiffs can rebut the prima facie showing of

3

probable cause by alleging that “the criminal proceedings were initiated on the basis of the

4

defendants’ intentional and knowingly false accusations and other malicious conduct.” Awabdy,

5

368 F.3d at 1067 (emphasis added); see also Galbraith v. Cty. of Santa Clara, 307 F.3d 1119,

6

1126 (9th Cir. 2002) (“a coroner’s reckless or intentional falsification of an autopsy report that

7

plays a material role in the false arrest and prosecution of an individual can support a claim under

8

42 U.S.C. § 1983”). Plaintiffs have not alleged facts that support a plausible inference that Ms.

9

Dillard’s prosecution on Count 5 was based on this unidentified falsified receipt.
Further, Count 5 was based on two acts: obtaining reimbursement for personal expenses,

United States District Court
Northern District of California

10
11

and Ms. Dillard instructing employees to work at her personal residence at below-market rates.

12

While a receipt could conceivably be material to the prosecution of Ms. Dillard for the first act, it

13

appears irrelevant to the second act. Indeed, when asked at oral argument what more Plaintiffs

14

could allege as to this receipt if given leave to amend, Plaintiffs did not proffer any facts relevant

15

to Ms. Dillard having employees work at her personal residence.
Plaintiffs’ argument that the entire prosecution was tainted by fraud, corruption, and

16
17

wrongful conduct because it was done so that Mr. Miley and Mr. Haggerty could “continue their

18

corrupt practices,” so that the County could obtain an insurance payment, and to punish Plaintiffs

19

all goes to the why and not the how of the prosecution. 3 (Dkt. No. 55 at 17.) It is not enough in a

20

malicious or retaliatory prosecution action to allege why the defendants might have wrongfully

21

done something, plaintiffs must allege that the defendants’ actions “were instrumental in causing

22

the filing and prosecution of the criminal proceedings.” Awabdy, 368 F.3d at 1068 (emphasis

23

added). This Plaintiffs have not done.
***

24
25
26
27
28

Likewise, Plaintiffs’ allegation that Defendants spoliated evidence prior to their trial by
expunging ACAP’s computer server such that they were “[un]able to obtain exculpatory evidence
when Defendants moved forward with their plan to have them prosecuted” fails to allege what
evidence was destroyed or how such evidence was material to their defense. (FAC at ¶ 23.)
3

9

44

Case 3:19-cv-00602-JSC Document 60 Filed 12/02/19 Page 10 of 10

United States District Court
Northern District of California

1

Plaintiffs have again failed to plead facts sufficient to overcome the conclusive

2

presumption of probable cause with respect to the convicted counts or the prima facie showing of

3

probable cause with respect to the acquitted counts, and have failed to tie their allegations of

4

wrongdoing to specific actions by any defendant let alone each defendant. The Court therefore

5

dismisses the section 1983 claim. The dismissal is without leave to amend. The Court previously

6

granted leave, and specifically advised Plaintiffs that they must allege facts that support an

7

inference that each Defendant induced the allegedly wrongful criminal charge. Yet the amended

8

complaint does not do so. Putting that deficiency aside, Plaintiffs also fail to allege any facts that

9

tie any particular fraudulent conduct to the charges. While at oral argument Plaintiffs suggested

10

that they could allege more about the unidentified receipt that somehow led to Count 5 against Ms.

11

Dillard, the proffered allegations as to the receipt are unrelated to the charge that Ms. Dillard had

12

employees work on her personal residence at below-market rates.
CONCLUSION

13
14

Plaintiffs’ attempt to obtain compensation for the personal and financial hardship they

15

have suffered as a result of their prosecution is understandable. The law, however, does not

16

permit recovery merely because a defendant is acquitted or a conviction reversed; instead,

17

compensation is permitted only when the prosecuted persons can prove that deliberate misconduct

18

caused the prosecution. Plaintiffs are unable to allege facts to meet this burden.

19

For the reasons stated above, Defendants’ motion to dismiss the section 1983 claim is

20

GRANTED without leave to amend. The state law claims are dismissed without prejudice. See

21

United Mine Workers v. Gibbs, 383 U.S. 715, 726 (1966).

22

This Order disposes of Docket No. 54.

23

IT IS SO ORDERED.

24

Dated: December 2, 2019

25
JACQUELINE SCOTT CORLEY
United States Magistrate Judge

26
27
28
10

45

Order of the Ninth Circuit
Denying Rehearing En Banc

46

Case 3:19-cv-00602-JSC Document 70 Filed 03/22/21 Page 1 of 2

FILED
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PAUL S. DANIELS; NANETTE S.
DILLARD,

No.

MAR 19 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-17534

D.C. No. 3:19-cv-00602-JSC
Northern District of California,
San Francisco

Plaintiffs-Appellants,
v.
COUNTY OF ALAMEDA; et al.,

ORDER

Defendants-Appellees,
and
KEITH CARSON; et al.,
Defendants.

Before: BYBEE and R. NELSON, Circuit Judges, and WHALEY,* District Judge.
Judge R. Nelson has voted to deny the petition for rehearing en banc, and
Judges Bybee and Whaley so recommend. The full court has been advised of the
petition for rehearing en banc, and no judge has requested a vote on whether to
rehear the matter en banc. Fed. R. App. P. 35.

*

The Honorable Robert H. Whaley, United States District Judge for the
Eastern District of Washington, sitting by designation.

47

Case 3:19-cv-00602-JSC Document 70 Filed 03/22/21 Page 2 of 2

Appellants’ petition for rehearing en banc, filed February 19, 2021, is
DENIED.

2

48

Opinion of California Court of
Appeal (re Supremacy Clause)

49

Filed 3/29/18

CERTIFIED FOR PARTIAL PUBLICATION*
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FIVE

THE PEOPLE,
Plaintiff and Respondent,

A141998

v.
(Alameda County
Super. Ct. Nos. CH-53179A &
CH-53179B)

NANETTE SHEREE DILLARD, et al.,
Defendants and Appellants.

Nanette Sheree Dillard and Paul Daniels appeal their convictions, following a jury
trial, of crimes related to their work at an anti-poverty agency, the Associated
Community Action Program (ACAP or the Agency). We conclude two of appellants’
convictions were preempted by federal law and reverse these convictions. We otherwise
affirm.
PROCEDURAL BACKGROUND
Dillard and Daniels were charged by amended information with the following:
Count 1: Conspiracy to commit grant theft by false pretenses (Pen. Code, §§ 182,
subd. (a)(1), 487, subd. (a))1, with overt acts of drafting, signing, and delivering a letter to
the United States Department of Health and Human Services (HHS) “falsely attesting”

*

Pursuant to California Rules of Court, rules 8.1105(b) and 8.1110, this opinion is
certified for publication with the exception of parts II–IV.
1

All undesignated section references are to the Penal Code.

1

50

that ACAP had more than $426,000 in “ ‘non-federal match funds’ ” in a Citibank
account, and sending a draft of such a letter to a Citibank manager.
Count 2: Grand theft by false pretenses (§ 487, subd. (a)) by unlawfully taking
grant funds from HHS. This count included an allegation that the property taken
exceeded $200,000 (§ 12022.6, subd. (a)(2)).
Count 3: Making a false account of public moneys (§ 424, subd. (a)(3)) by signing
and sending false and inaccurate letters to HHS. A third co-defendant, Vivian Rahwanji,
was also charged with this count. Rahwanji entered into a plea agreement with the
People on the eve of trial and, as part of this agreement, testified as a prosecution witness.
Count 4: Using public moneys for a purpose not authorized by law (§ 424,
subd. (a)(2)), by improperly using over $280,000 of funds intended for a HHS grant
program to fund Agency payroll and other Agency expenses.
In addition, Dillard was charged with the following:
Count 5: Appropriating public moneys to her own use (§ 424, subd. (a)(1)), by
instructing employees to work on her personal residence at below-market rates and
obtaining reimbursement for improper business expenses, such as massages and
expensive meals.
Count 6: Preparing false and ante-dated documentary evidence (§ 134), by
preparing a memoranda regarding the residency status of Agency clients and an agenda
of a seminar at a hotel.
Following a lengthy trial, the jury convicted appellants of theft by false pretenses
(count 2) and making a false account of public moneys (count 3), and convicted Dillard
of preparing false documentary evidence (count 6). The jury acquitted appellants on all
remaining counts.
FACTUAL BACKGROUND
The Agency
ACAP was an anti-poverty agency created pursuant to a joint powers agreement
between Alameda County (the County) and several cities in the County. A governing
board (the Board) consisted of representatives from each of the municipalities and,
2

51

among other powers, selected the Agency’s executive director. Dillard was appointed the
Agency’s interim executive director in 2004 and its executive director in 2005. Daniels
was hired as an administrative assistant at the Agency in 2004, and was promoted to
grants manager the following year. Daniels and Dillard married in 2007.
The Assets for Independence Grant Program
In June 2005, the Agency sought, and was awarded, a five-year, $500,000 Assets
for Independence (AFI) grant from HHS. Two HHS employees testified about the rules
governing AFI grants: Katrina Morgan, an HHS grants management officer, and Anne
Yeoman, a 10-year contract employee with HHS who worked primarily on the AFI
program. AFI grants are awarded to organizations or agencies to fund programs that help
low-income people build assets. We will refer to the organizations or agencies
administering the AFI programs as “grantees,” and the low-income individuals served by
these programs as “savers.” In an AFI program, savers deposit money in a designated
individual bank account. These deposits are matched with federal AFI grant funds and an
equal amount of nonfederal funds. The matched deposits can be withdrawn for approved
uses, including higher education, starting a business, or buying a house.
Grantees do not receive the federal AFI money when the grant is awarded.
Instead, during the five-year grant period, grantees periodically “drawdown” some or all
of the federal grant funds into a dedicated bank account maintained by the grantee, called
the reserve account. A grantee can only drawdown federal funds for which it has an
equal amount of nonfederal funds on deposit, referred to as “matching nonfederal funds.”
Before each drawdown, grantees must submit to HHS a letter requesting the drawdown
and a letter from the bank holding the reserve fund confirming the presence of matching
nonfederal funds in that account. AFI federal grant funds must be drawn down into the
reserve account within the five-year grant period, and the distribution of grant funds to
savers must be completed by the end of an additional year. Grantees can spend no more
than 15 percent of the drawn down federal AFI funds on program administration; the
remainder must be used to match saver deposits. HHS provides grantees with an “AFI

3

52

Grantee Handbook,” an AFI resource center available to answer grantee questions by
phone or email, and in-person trainings at grantee conferences.
The Agency’s Drawdowns of Federal AFI Grant Funds
The Agency’s AFI reserve account, and the hundreds of individual saver deposit
accounts participating in the Agency’s AFI program, were held at a Citibank branch. The
reserve account was the “umbrella” account, and the individual saver accounts were
attached to the reserve account. Vivian Rahwanji was the manager of that Citibank
branch. Dillard was the sole signatory on the AFI reserve account, and both she and
Daniels had access to the AFI account records.
The Agency’s five-year AFI grant period ended on June 14, 2010; this date was
the last day the Agency could drawdown federal AFI funds. As of the beginning of that
month, the Agency had drawn down less than $75,000 out of the $500,000 available
federal AFI funds. On June 10, although the Agency only had approximately $47,000 in
its AFI reserve account, Daniels emailed Rahwanji a template letter to HHS stating the
Agency had $426,874.44 of “non-federal match funds” on deposit in its AFI reserve
account and requested she “place the letter on Citibank stationary [and] sign it.”2
Rahwanji did so. Daniels sent the Citibank letter to HHS and HHS transferred the
requested federal AFI grant funds to the Agency’s reserve account. The prosecution
argued this letter was the basis for the theft by false pretenses and false account of public
moneys counts (counts 2 and 3)—even though the letter was signed by Rahwanji, the
People argued appellants prepared the letter knowing Rahwanji would “rubber-stamp” it
and/or aided and abetted her act.3
2

The parties presented evidence of emails and telephone calls leading up to this June 10
email; we omit these facts as unnecessary to our resolution of the appeal.
Dillard, Daniels, and Rahwanji all testified they believed the savers’ deposits could be
counted as “non-federal match funds.” The combined individual saver accounts
contained less than $200,000. Daniels testified he relied on Rahwanji to verify the
amount before she signed the letter. Rahwanji testified she attempted to so verify but
abandoned the cumbersome task, believing based on an “eyeball” assessment that the
figures were about right.
3

4

53

Events Following the June 2010 Drawdown
In August of 2010, the Agency did not have enough funds to meet payroll and AFI
federal grant funds were used for this purpose. By February 1, 2011, approximately
$280,000 of the federal AFI funds had been used for payroll and approximately $40,000
had been transferred to an Agency “petty cash” account.4 The People confirmed in
closing statements that they were not alleging appellants used AFI funds for their own
personal use.
On February 2, 2011, the Board placed Dillard on administrative leave. Both
appellants were subsequently terminated.
Following appellants’ termination, an independent audit determined the Agency
was in financial disarray and the Board decided to dissolve it. The interim executive
director in charge of overseeing the Agency’s dissolution determined that out of the
nearly $500,000 in drawn down federal AFI funds, the Agency either lacked nonfederal
matching funds for or had used for non-AFI purposes approximately $435,000. The
County informed HHS of this and HHS demanded the Agency return these funds. The
Agency had approximately $117,000 left in the AFI reserve account and this amount was
paid back to the federal government, leaving a remaining liability of approximately
$317,000.
Facts Relevant to Count 6 (Preparing False Documentary Evidence)
Count 6 alleged Dillard prepared two ante-dated documents. The first related to
reimbursed expenses. On August 26, 2010, Dillard paid for meals, drinks, and massages
for herself and the Agency’s deputy director at a local hotel and spa, and was
subsequently reimbursed by the Agency for these expenses. On February 3, 2011, the
day after she was placed on administrative leave, Dillard emailed her assistant asking for
“copies of all my expenses that have been submitted.” The following day, Dillard
4

Dillard testified she believed this use of the funds was permissible as long as all of the
money was returned when the AFI grant closed out, and she intended to return the funds
so used to the Citibank AFI reserve account. As noted above, the jury acquitted
appellants of improperly using AFI funds.

5

54

emailed her assistant a document purporting to be an “agenda” for an “ACAP
Organizational Management” seminar held on August 26, 2010 at the hotel where the
expenses had been incurred. Dillard’s email asked her assistant to “[p]lease attach to
expenses.” Her assistant, who made all the arrangements for the hotel visit, had never
seen the agenda before. The deputy director testified that several aspects of the agenda
did not accurately represent what happened that day.
The second document related to an Agency program called CREW, which
provided job training and employment to eligible participants living in the County.
Dillard’s nephew and his friend were participants in the CREW program but their June
2010 Agency paperwork stated they lived outside the County. In February 2011, the day
after Dillard was placed on administrative leave, she emailed her assistant asking if she
could “get a hold of the client files for [her nephew and his friend]? I would like to
review them in order to prepare any defense I might need. [¶] Please do not hesitate if
anything I request makes you uncomfortable.” The following day, Dillard emailed her
assistant memoranda dated June 16, 2010 stating Dillard’s nephew and his friend were
homeless but staying within the County. The email asked her assistant to “[p]lease file in
client files,” a reference to the CREW participant files.
Dillard admitted both documents were prepared after the fact and ante-dated, but
claimed they were recreations of contemporaneously-prepared documents.
DISCUSSION
I. Preemption
Appellants argue the prosecutions of counts 2 and 3—theft by false pretenses and
false accounting of public moneys, both based on the representation to HHS that the
Agency had matching nonfederal funds in its AFI reserve account—were preempted by
federal law. We agree.
A. Legal Standard
“ ‘The supremacy clause of the United States Constitution establishes a
constitutional choice-of-law rule, makes federal law paramount, and vests Congress with
the power to preempt state law.’ [Citations.] . . . Preemption is foremost a question of
6

55

congressional intent: did Congress, expressly or implicitly, seek to displace state law?
[Citations.] [¶] We have identified several species of preemption. Congress may
expressly preempt state law through an explicit preemption clause, or courts may imply
preemption under the field, conflict, or obstacle preemption doctrines.[5] [Citations.] . . .
The burden is on . . . the party asserting preemption[] to demonstrate [one of these
species of preemption] applies.” (Quesada v. Herb Thyme Farms, Inc. (2015) 62 Cal.4th
298, 307–308 (Quesada).)
Appellants do not identify any explicit preemption clause, nor do they contend
conflict preemption—present “when simultaneous compliance with both state and federal
directives is impossible” (Viva!, supra, 41 Cal.4th at p. 936)—applies. Appellants rely in
part on field preemption, which “applies ‘where the scheme of federal regulation is
sufficiently comprehensive to make reasonable the inference that Congress “left no
room” for supplementary state regulation.’ ” (Ibid.) However, as will be shown below,
the federal laws and regulations governing the AFI program are “not so complex or
comprehensive that it may be inferred Congress intended to occupy the field.” (In re
Jose C. (2009) 45 Cal.4th 534, 553.)
We focus instead on appellants’ obstacle preemption argument. “Obstacle
preemption permits courts to strike state law that stands as ‘an obstacle to the
accomplishment and execution of the full purposes and objectives of Congress.’
[Citations.] It requires proof Congress had particular purposes and objectives in mind, a
demonstration that leaving state law in place would compromise those objectives, and
reason to discount the possibility the Congress that enacted the legislation was aware of
the background tapestry of state law and content to let that law remain as it was.
“ ‘The categories of preemption are not “rigidly distinct.” ’ [Citations.] We and the
United States Supreme Court have often identified only three species of preemption,
grouping conflict preemption and obstacle preemption together in a single category.
[Citations.] As conflict and obstacle preemption are analytically distinct and may rest on
wholly different sources of constitutional authority, we treat them as separate categories
here.” (Viva! Intern. Voice for Animals v. Adidas Promotional Retail Operations, Inc.
(2007) 41 Cal.4th 929, 935–936, fn. 3 (Viva!).)
5

7

56

Ultimately, ‘what constitutes a “sufficient obstacle [for a finding of implied preemption]
is a matter of judgment, to be informed by examining the federal statute as a whole and
identifying its purpose and intended effects.” ’ ” (Quesada, supra, 62 Cal.4th at p. 312.)
One of the primary cases relied on by appellants is Buckman Co. v. Plaintiffs’ Leg.
Com. (2001) 531 U.S. 341 (Buckman). In Buckman, the plaintiffs claimed to be injured
by a medical device and brought a state law tort lawsuit against a consultant to the
device’s manufacturer. (Id. at p. 343.) The plaintiffs claimed the consultant “made
fraudulent representations to the Food and Drug Administration (FDA or Administration)
in the course of obtaining approval to market the [devices]” and, “[h]ad the
representations not been made, the FDA would not have approved the devices, and
plaintiffs would not have been injured.” (Ibid.)
The high court discussed the federal statutory scheme governing medical devices,
set forth in the Federal Food, Drug, and Cosmetic Act (FDCA), 52 Stat. 1040, as
amended by the Medical Device Amendments of 1976 (MDA), 90 Stat. 539, 21 United
States Code section 301. (Buckman, supra, 531 U.S. at p. 344.) Devices which
“ ‘presen[t] a potential unreasonable risk of illness or injury,’ ” like the one at issue in
that case, “must complete a thorough review process with the FDA before they may be
marketed.” (Ibid.) However, “devices that were already on the market prior to the
MDA’s enactment in 1976” and any “ ‘substantially equivalent’ ” devices may seek an
exception to this review process whereby they “remain available until the FDA initiates
and completes the [review] process.” (Id. at p. 345.) Manufacturers applying for this
exception, referred to as the “ ‘§ 510(k) process,’ ” must submit certain information to the
FDA, including the intended use for the device. (Ibid.) The plaintiffs contended that the
defendant’s successful section 510(k) application fraudulently represented the intended
use of the device. (Id. at pp. 346–347.)
Buckman first considered whether there was a presumption against preemption:
“Policing fraud against federal agencies is hardly ‘a field which the States have
traditionally occupied’ [citation], such as to warrant a presumption against finding federal
pre-emption of a state-law cause of action. To the contrary, the relationship between a
8

57

federal agency and the entity it regulates is inherently federal in character because the
relationship originates from, is governed by, and terminates according to federal law.
[Citation.] Here, petitioner’s dealings with the FDA were prompted by the MDA, and the
very subject matter of petitioner’s statements were dictated by that statute’s provisions.
Accordingly—and in contrast to situations implicating ‘federalism concerns and the
historic primacy of state regulation of matters of health and safety,’ [citation]—no
presumption against pre-emption obtains in this case.” (Buckman, supra, 531 U.S. at
pp. 347–348.)
Buckman concluded the plaintiffs’ claims were preempted because “the federal
statutory scheme amply empowers the FDA to punish and deter fraud against the
Administration, and that this authority is used by the Administration to achieve a
somewhat delicate balance of statutory objectives. The balance sought by the
Administration can be skewed by allowing fraud-on-the-FDA claims under state tort
law.” (Id. at p. 348.) The court highlighted the existence of statutory and regulatory
“provisions aimed at detecting, deterring, and punishing false statements made during
this and related approval processes. The FDA is empowered to investigate suspected
fraud [citations], and citizens may report wrongdoing and petition the agency to take
action [citation]. In addition to the general criminal proscription on making false
statements to the Federal Government [citation], the FDA may respond to fraud by
seeking injunctive relief [citation], and civil penalties [citation]; seizing the device
[citation]; and pursuing criminal prosecutions [citation]. The FDA thus has at its disposal
a variety of enforcement options that allow it to make a measured response to suspected
fraud upon the Administration. [¶] This flexibility is a critical component of the statutory
and regulatory framework under which the FDA pursues difficult (and often competing)
objectives.” (Buckman, supra, 531 U.S. at p. 349, fns. omitted.) For example, the FDA
must “ensure both that medical devices are reasonably safe and effective and that, if the
device qualifies under the § 510(k) exception, it is on the market within a relatively short
period of time,” and must “regulat[e] the marketing and distribution of medical devices

9

58

without intruding upon decisions statutorily committed to the discretion of health care
professionals,” such as the off-label use of a medical device. (Id. at pp. 349–350.)
The court continued: “State-law fraud-on-the-FDA claims inevitably conflict with
the FDA’s responsibility to police fraud consistently with the Administration’s judgment
and objectives. As a practical matter, complying with the FDA’s detailed regulatory
regime in the shadow of 50 States’ tort regimes will dramatically increase the burdens
facing potential applicants—burdens not contemplated by Congress in enacting the
FDCA and the MDA. Would-be applicants may be discouraged from seeking § 510(k)
approval of devices with potentially beneficial off-label uses for fear that such use might
expose the manufacturer or its associates (such as petitioner) to unpredictable civil
liability. . . . [¶] Conversely, fraud-on-the-FDA claims would also cause applicants to fear
that their disclosures to the FDA, although deemed appropriate by the Administration,
will later be judged insufficient in state court. Applicants would then have an incentive
to submit a deluge of information that the Administration neither wants nor needs,
resulting in additional burdens on the FDA’s evaluation of an application.” (Buckman,
supra, 531 U.S. at pp. 350–351.) The court emphasized the fact that the plaintiffs’ “fraud
claims exist solely by virtue of the FDCA disclosure requirements. . . . [¶] In sum, were
plaintiffs to maintain their fraud-on-the-agency claims here, they would not be relying on
traditional state tort law which had predated the federal enactments in questions. On the
contrary, the existence of these federal enactments is a critical element in their case. For
the reasons stated above, we think this sort of litigation would exert an extraneous pull on
the scheme established by Congress, and it is therefore pre-empted by that scheme.” (Id.
at p. 353.)6

6

Appellants also rely on two other United States Supreme Court cases. Arizona v. U.S.
(2012) 567 U.S. 387 was a field preemption case. (Id. at p. 401.) The high court rejected
the state’s argument that the challenged law had “the same aim as federal law” because it
“ignores the basic premise of field preemption—that States may not enter, in any respect,
an area the Federal Government has reserved for itself.” (Id. at p. 402.) The court also
noted the argument was “unpersuasive on its own terms. Permitting the State to impose
its own penalties for the federal offenses here would conflict with the careful framework
10

59

Quesada, supra, 62 Cal.4th 298 is a contrasting case. In Quesada, the plaintiff
alleged the defendant was selling conventionally grown produce under an organic label,
and brought state law false advertising and unfair competition claims. (Id. at pp. 303–
304.) The defendant argued these state law claims were preempted by the federal
Organic Foods Production Act of 1990 (7 U.S.C. §§ 6501–6522; Organic Foods Act).
(Quesada, at p. 304.) As in Buckman, the Quesada court considered whether a
presumption against preemption applied. (Quesada, at pp. 312–314.) The court noted
“[t]he regulation of food labeling to protect the public is quintessentially a matter of
longstanding local concern” and “the federal government has assumed a more peripheral
role and routinely left undisturbed local policy judgments about how best to protect
consumers.” (Id. at p. 313.) “Consequently, the presumption against preemption ‘applies
with particular force’ where state consumer protection laws regulating deceptive food
labeling are at issue.” (Id. at p. 314.)
The California Supreme Court proceeded to consider the defendant’s obstacle
preemption argument. The court highlighted the express purposes of the Organic Foods
Act: “ ‘to establish national standards governing the marketing of’ ” organic food, “ ‘to
assure consumers that organically produced products meet a consistent standard,’ ” and
“ ‘to facilitate interstate commerce in’ ” organic food. (Quesada, supra, 62 Cal.4th at
p. 316.) The court found that “permitting state consumer fraud actions would advance,
not impair, these goals. Substitution fraud, intentionally marketing products as organic

Congress adopted. [Citations.] Were [the state law] to come into force, the State would
have the power to bring criminal charges against individuals for violating a federal law
even in circumstances where federal officials in charge of the comprehensive scheme
determine that prosecution would frustrate federal policies.” (Ibid.) Wisconsin Dept. of
Industry v. Gould Inc. (1986) 475 U.S. 282, involved the National Labor Relations Act
(NLRA), which “largely displaced state regulation of industrial relations.” (Id. at p. 286.)
The high court found a state law debarring repeat NLRA violators from state contracts
“functions unambiguously as a supplemental sanction for violations of the NLRA,”
“conflicts with the [National Labor Relations] Board’s comprehensive regulation of
industrial relations,” and “detracts from the ‘integrated scheme of regulation’ created by
Congress.” (Id. at p. 288–289.)

11

60

that have been grown conventionally, undermines the assurances the USDA Organic
label is intended to provide. Conversely, the prosecution of such fraud, whether by
public prosecutors where resources and state laws permit, or through civil suits by
individuals or groups of consumers, can only serve to deter mislabeling and enhance
consumer confidence. [Citation.] From the grower perspective too, anything that deters
the few bad apples, the ‘dishonest traders looking to cash in on the premium prices
organic food commands’ [citation], enhances the overall health of the interstate market
and benefits those producers that play by the rules in processing and marketing their
products. Private claims like those here are thus consistent with the Organic Foods Act’s
goals of reassuring consumers and enabling fair competition.” (Id. at pp. 316–317,
fn. omitted.)
B. AFI Legislation and Regulations
We turn now to the federal statutory and regulatory scheme governing the AFI
program. The Assets for Independence Act (hereafter, AFI Act or the Act) was enacted
in 1998 and codified as a note to 42 United States Code section 604.7 The express
purpose of the Act is “to provide for the establishment of demonstration projects
designed to determine-- [¶] (1) the social, civic, psychological, and economic effects of
providing to individuals and families with limited means an incentive to accumulate
assets by saving a portion of their earned income; [¶] (2) the extent to which an assetbased policy that promotes saving for postsecondary education, homeownership, and
microenterprise development may be used to enable individuals and families with limited
means to increase their economic self-sufficiency; and [¶] (3) the extent to which an
asset-based policy stabilizes and improves families and the community in which the
families live.” (AFI Act, § 403.)

7

(Pub. L. 105-285 (Oct. 27, 1998) 112 Stat. 2759, as amended by Pub. L. 106-554 (Dec.
21, 2000) 114 Stat. 2763; Pub. L. 107-110 (Jan. 8, 2002) 115 Stat. 1947; Pub. L. 114-95
(Dec. 10, 2015) 129 Stat. 2168.)

12

61

To this end, the Act authorizes HHS to approve demonstration projects designed
to help low-income, low-net worth individuals accumulate assets for specified purposes,
including postsecondary education and buying a home. (AFI Act, §§ 404, 405, 408.)
The demonstration projects may be administered by nonprofit organizations, state or local
government agencies, tribal governments, or certain credit unions and financial
institutions. (Id., § 404.)
For approved projects, the grantee “shall establish a Reserve Fund” and deposit in
it “all funds . . . from any public or private source in connection with the demonstration
project.” (AFI Act, § 407(a), (b)(1)(A).)8 HHS shall disburse the grants over the course
of the five-year demonstration projects “in an amount not to exceed the lesser of-- [¶] (1)
the aggregate amount of funds committed as matching contributions from non-Federal
public or private sector sources; or [¶] (2) $1,000,000.” (Id., § 406(b).) Each dollar an
individual deposits up to $2,000 shall be matched by between $0.50 and $4 of nonfederal
funds and an equal amount of federal AFI grant funds. (Id., § 410(a)–(b).) The Act sets
forth detailed requirements for individual saver eligibility and qualified uses of the
matched deposit account funds. (Id., §§ 404, 408.)
The Act requires grantees to submit annual progress reports including the “number
and characteristics” of individual savers, the amounts deposited and withdrawn, how
configurations of the program and grantee organization impacted saver participation, and
how the impact on participation varied among “different populations or communities.”
(AFI Act, § 412(a).) The Act further requires HHS to hire “an independent research
organization to evaluate the demonstration projects conducted under [the Act],
individually and as a group.” (Id., § 414(a).) The independent evaluation is to consider a
number of factors including the demonstration projects’ effects on savings behavior,
savings rates, and rates of homeownership and postsecondary education, as well as the

8

The Act excludes state and local government grantees from the requirement to establish
a reserve fund. (AFI Act, § 407(a).) However, the Agency’s AFI grant award obligated
it to establish a reserve fund.

13

62

“economic, civic, psychological, and social effects of asset accumulation,” and for all of
these factors, how they vary among different populations or communities. (Id.,
§ 414(b)(1)–(4).) The evaluation must also consider “potential financial returns” to the
federal government, and whether “a permanent program of individual development
accounts should be established.” (Id., § 414(b)(5)–(6).)
The Act provides that grantees shall “have sole authority over the administration
of the project. [HHS] may prescribe only such regulations or guidelines with respect to
demonstration projects conducted under [the Act] as are necessary to ensure compliance
with the approved applications and the requirements of [the Act].” (AFI Act, § 411.)
However, this administrative authority is expressly subject to HHS’s sanction authority
set forth in the Act. (Id., §§ 411, 413.) The Act provides that if HHS determines a
grantee “is not operating a demonstration project in accordance with the entity’s
approved application . . . or the requirements of [the Act] (and has not implemented any
corrective recommendations directed by [HHS]), [HHS] shall terminate such entity’s
authority to conduct the demonstration project,” take control of the grantee’s reserve
fund, and attempt to identify another entity to take over the demonstration project. (Id.,
§ 413.)
HHS has other sanctions available for the failure to comply with requirements
regarding the reserve funds. AFI regulations provide that grantee reserve funds must
comply with HHS’s uniform administrative requirements. (45 C.F.R. § 1000.3.) The
regulations setting forth these administrative requirements provide: “If a non-Federal
entity fails to comply with Federal statutes, regulations, or the terms and conditions of a
Federal award, the HHS awarding agency . . . may impose additional conditions . . . . [or,
if] noncompliance cannot be remedied by imposing additional conditions, the HHS
awarding agency . . . may take one or more of the following actions, as appropriate in the
circumstances: [¶] (a) Temporarily withhold cash payments . . . . [¶] (b) Disallow (that is,
deny both use of funds and any applicable matching credit for) all or part of the cost of
the activity or action not in compliance. [¶] (c) Wholly or partly suspend (suspension of
award activities) or terminate the Federal award. [¶] (d) Initiate suspension or debarment
14

63

proceedings . . . . [¶] (e) Withhold further Federal awards for the project or program. [¶]
(f) Take other remedies that may be legally available.” (45 C.F.R. § 75.371.) One of the
other legally available remedies for false representations to HHS is to seek federal
criminal prosecution under 18 U.S.C. section 1001.9
C. Presumption Against Preemption
We turn first to whether the presumption against preemption applies in this case.
As highlighted in Buckman, the inquiry is whether the state regulation occurs in “ ‘a field
which the States have traditionally occupied.’ ” (Buckman, supra, 531 U.S. at p. 347.)
The analysis hinges on how we characterize the area of regulation: is it the prosecution of
theft and criminal fraud, which lies within the states’ historic police powers, or is it
“[p]olicing fraud against federal agencies . . . [,] hardly ‘a field which the States have
traditionally occupied’ ” (Buckman, at p. 347).
For purposes of the presumption against preemption, Buckman characterized state
law tort claims as claims involving “[p]olicing fraud against federal agencies,” where the
defendant’s “dealings with the FDA were prompted by [a federal statute], and the very
subject matter of [the defendant’s] statements were dictated by that statute’s provisions.”
(Buckman, supra, 531 U.S. at pp. 347–348.) Similarly, appellants’ dealings with HHS
were prompted by the AFI Act, and the subject matter of the Citibank letter was dictated
by that statute’s provisions.
Commonwealth’s Motion to Appoint Counsel (3d Cir. 2015) 790 F.3d 457
(Commonwealth’s Motion) is also instructive. In that case, a nonprofit organization
providing federal defender services was representing capital prisoners in state post-

With exceptions not relevant here, “whoever, in any matter within the jurisdiction of the
executive, legislative, or judicial branch of the Government of the United States,
knowingly and willfully-- [¶] (1) falsifies, conceals, or covers up by any trick, scheme, or
device a material fact; [¶] (2) makes any materially false, fictitious, or fraudulent
statement or representation; or [¶] (3) makes or uses any false writing or document
knowing the same to contain any materially false, fictitious, or fraudulent statement or
entry; [¶] shall be fined under this title, imprisoned not more than 5 years . . . , or both.”
(18 U.S.C. § 1001.)
9

15

64

conviction review proceedings. (Id. at pp. 462–463.) In several such proceedings, the
state attorney general asked the state Supreme Court to disqualify the federal defender
organization from appearing absent federal court authorization. (Id. at pp. 463–464.)
“[T]he cited reason for disqualification was based on the organization’s alleged misuse of
federal grant funds to appear in state proceedings,” specifically, grant funds authorized by
the Criminal Justice Act, 18 United States Code § 3006A, and administered by the
Administrative Office of the United States Courts (AO). (Commonwealth’s Motion, at
pp. 461–462.) The state Supreme Court issued orders stating that, if federal grant funds
were being used to fund the federal defender’s appearance in the state proceedings, the
federal defender should be disqualified. (Id. at pp. 464–465.)10 The federal defender
removed the disqualification motions to federal court and argued, inter alia, that federal
law preempted the motions. (Id. at p. 461.)
The federal court of appeals considered whether the presumption against
preemption applied. The state argued the authority for the removal was a state
constitutional provision authorizing the state Supreme Court to prescribe rules governing
the practice and procedure of the state courts. (Commonwealth’s Motion, supra, 790 F.3d
at p. 475.) The court of appeals reasoned: “As a general matter, it is true that the States
have a long history of regulating the conduct of lawyers, who are officers of the courts.
[Citation.] But the impetus for the proceedings here is that the Federal Community
Defender is allegedly applying its federal grant funds to purposes not authorized by the
relevant federal statutes and grant terms. [Citation.] As explained above, these grants are
paid under the supervision of the AO, a federal agency within the Judicial Conference
with regulatory control over the Federal Community Defender. ‘[T]he relationship
between a federal agency and the entity it regulates is inherently federal in character
because the relationship originates from, is governed by, and terminates according to

10

The federal defender claimed only private funds were used for work on state
proceedings, unless that work was preparatory for a federal proceeding.
(Commonwealth’s Motion, supra, 790 F.3d at p. 463.)

16

65

federal law.’ [Citation.] Policing such relationships ‘is hardly a field which the States
have traditionally occupied,’ and thus there can be no presumption against preemption
here.” (Id. at p. 476.)
We find this case akin to Buckman and Commonwealth’s Motion, and unlike
Quesada. In Quesada, the state laws “regulat[ed] deceptive food labeling,” which the
California Supreme Court found to be “quintessentially a matter of longstanding local
concern.” (Quesada, supra, 62 Cal.4th at pp. 313, 314.) Here, the sole basis for the
prosecutions was appellants’ representation to HHS about the AFI reserve account, made
pursuant to and as required by the AFI Act. (See Buckman, supra, 531 U.S. at pp. 347–
348.) The relationship between appellants and HHS “originates from, is governed by,
and terminates according to federal law.” (Buckman, at p. 347; Commonwealth’s Motion,
supra, 790 F.3d at p. 476.) Appellants’ “dealings with [HHS] were prompted by the [AFI
Act], and the very subject matter of [appellants’] statements were dictated by that
statute’s provisions.” (See Buckman, at pp. 347–348.) Policing such a relationship is not
an area of historic state regulation, accordingly, no presumption against preemption
applies.
D. Obstacle Preemption Analysis
We now return to obstacle preemption and consider whether the prosecution of
counts 2 and 3 is preempted by the AFI Act. As discussed in part I.B, ante, the purpose
of the AFI Act was to establish asset-building demonstration projects and determine the
various effects and impacts of asset-based policies. (AFI Act, § 403.) We conclude that
permitting state criminal prosecutions based on grantees’ representations to HHS made
pursuant to the AFI Act would undermine these Congressional objectives.
The analysis in Commonwealth’s Motion, finding preemption of the state’s
attempt to disqualify the federal public defender’s office for violating the terms of its
federal grant, is instructive. “ ‘Sanctions are drawn not only to bar what they prohibit but
to allow what they permit, and the inconsistency of sanctions [may] undermine[] the
congressional calibration of force.’ [Citation.] This is especially so when a federal
agency is afforded the discretion to apply those sanctions or stay its hand. [Citations.] [¶]
17

66

Here, Congress has delegated supervisory authority over [Criminal Justice Act] grants to
the AO. The AO has the power to ‘reduce, suspend, or terminate, or disallow payments
. . . as it deems appropriate’ if the Federal Community Defender does not comply with
the terms of its grants. [Citation.] But if the [state] could sanction noncompliance, the
AO could be hindered in its ability to craft an appropriate response. . . . After all, as the
District Court noted . . . , ‘the [AO’s] usual remedies, such as recoupment of distributed
funds, are more consistent with the CJA’s objectives because they mitigate the disruption
to the existing attorney-client relationships.’ [Citation.] Allowing the Commonwealth to
attach consequences to the Federal Community Defender’s relationship with the AO
would ‘exert an extraneous pull on the scheme established by Congress’ in a manner that
conflicts with federal objectives. Buckman, 531 U.S. at 353.” (Commonwealth’s Motion,
supra, 790 F.3d at p. 477.) Similarly, the AFI Act provides that if a grantee is not
operating its AFI project in compliance with the Act and its grant, HHS may recommend
corrective measures and, if those are not implemented, terminate the project. (AFI Act,
§ 413(a).) HHS can take additional sanction measures, including debarment or
recommending federal criminal prosecution. If states could initiate their own criminal
prosecutions, HHS “could be hindered in its ability to craft an appropriate response.”
(Commonwealth’s Motion, at p. 477.)
Significantly, the Act depends on grantees’ interest in participating in the AFI
program. The threat of state criminal prosecution could deter potential grantees from
applying for an AFI grant. (See Buckman, supra, 531 U.S. at p. 350 [“Would-be
applicants may be discouraged from seeking [FDA] approval of devices with potentially
beneficial off-label uses for fear that such use might expose the manufacturer or its
associates (such as petitioner) to unpredictable civil liability.”].) We note that the HHS
employees testified at trial that the process of applying for an AFI grant was “extensive,”
“not easy,” and “takes resources of the agency.” They testified the AFI program was
difficult to administer and involved unique, confusing rules. The asset-building work of
an AFI program “is not very easy. Even if you have the money, doing it is not that easy”
and requires a lot of hard work.
18

67

We find it notable that the only sanction for noncompliance set forth in the AFI
Act itself is termination of the grantee’s authority to conduct the demonstration project.
(AFI Act, § 413(a).) It is also notable that the section of the Act setting forth sanctions
includes detailed requirements that HHS attempt to identify another entity to operate the
project and transfer the project to that entity. (AFI Act, § 413(b)(1)–(5).) This
underscores Congress’s purpose in enacting the AFI Act to conduct and support assetbuilding demonstration projects, and suggests Congress believed that punitive measures
for noncompliance might often conflict with that purpose.11
Indeed, HHS’s response to grantee noncompliance has conformed to this
understanding. HHS employee Yeoman testified that when HHS becomes aware of
problems with a grantee’s administration of an AFI grant, “generally speaking, we sort of
take the position of go and sin no more. That is, okay, you screwed up. . . . Here’s how
you need to do it. Do it right from now on. . . . [¶] We don’t want to stop a program and
stop the individuals from getting the benefit of it if we can find another way to get it
right.” If AFI grant money had been spent inappropriately, Yeoman testified, “[w]e
would first figure out can we, can we make this right? It might, it might involve the
grantee paying back funds, paying back money, into the grant from some other source
. . . .” Morgan similarly testified that if HHS learned a grantee drew down federal AFI
grant money without matching nonfederal funds on deposit, “we would try our best to
work with the grantee to help them be successful in correcting such a problem without
having to do some disciplinary action. So, we would probably try and we would, you
know, talk to our legal counsel, again, in the office of general counsel for HHS, and try to
work it out with them, if we could,” although “once a grant project period is over, . . . it
really would be difficult to pursue any type of correction to that type of thing without a

The People argue that state theft prosecutions “can deter misuse of federal funds” and
thus further the purpose of the AFI Act, but appellants were acquitted of misusing the
AFI funds. The challenged prosecutions were based solely on appellants’
misrepresentations to HHS.
11

19

68

disallowance.” While this testimony is not indicative of Congress’s intent at the time the
AFI Act was enacted, it lends supports to our assessment of that intent.
This obstacle—the potential of the state law to deter applicants critical to the
federal law’s purpose—was entirely absent in Quesada, where the California Supreme
Court found that “permitting state consumer fraud actions would advance, not impair” the
goals of federal statutes. (Quesada, supra, 62 Cal.4th at p. 316 [establishing national
marketing standards for organic food and increase consumer confidence in organicallylabeled food].)
The People cite several cases rejecting preemption challenges to state criminal
prosecutions for fraud against the federal government. We find these cases
distinguishable. Three involve prosecutions based on the defendants’ theft of federal
benefits. (State v. Jones (Utah Ct.App. 1998) 958 P.2d 938, 939 [federal disability
retirement benefits]; People v. Lewis (Ill.App.Ct. 1998) 693 N.E.2d 916, 917 [federal
unemployment benefits for railroad employees]; Commonwealth v. Morris (Pa.Super.Ct.
1990) 575 A.2d 582, 583 [Social Security benefit checks].) The cases describe no
Congressional purpose that would be hindered by state prosecutions. (Jones, at p. 943
[the defendant “concedes that the State’s prosecution creates no actual conflict with the
administration of [the federal law]”]; Lewis, at p. 920 [“we are confident that the State’s
prosecution of defendant for theft of federal unemployment benefits does not operate as
an impediment to Congress’s purposes and objectives in prohibiting benefits fraud”];
Morris, at p. 586 [“We conclude that the Social Security Act itself as well as its
legislative history make clear that the federal government did not intend to dominate the
field of public welfare to the exclusion of the states.”].) Similarly, in a fourth case
involving a state prosecution for forgery of federal income tax documents, “the defendant
has not pointed to any actual conflict with federal law.” (State v. Radzvilowicz
(Conn.App.Ct. 1997) 703 A.2d 767, 788.)
In the two remaining cases relied on by the People, the defendants argued their
state prosecutions were preempted by federal criminal statutes penalizing the same
conduct. (Carter v. Commonwealth (Va.Ct.App. 1997) 492 S.E.2d 480, 480–481
20

69

[defendant convicted of cable television fraud; federal statute criminalized unauthorized
reception of cable television service]; State v. McMurry (Ariz.Ct.App. 1995) 909 P.2d
1084, 1085–1086 [defendant convicted of forgery for possessing counterfeit $20 bills;
federal statute criminalized possession of counterfeit tender].) Again, there was no
indication of a Congressional purpose that would be hindered by the state prosecution; to
the contrary, in both cases an express savings clause preserved the states’ authority.
(Carter, at pp. 481–482 [savings clause encompassed state laws “ ‘regarding the
unauthorized interception or reception of any cable service,’ ” and the state law “stands
not as an obstacle to the accomplishment and execution of the full objectives of
Congress, but as a supplement”]; McMurry, at p. 1086 [“Nothing in the federal statutes
regarding counterfeiting . . . indicates, much less expresses, an intent by the federal
government to legislatively occupy the field as to the punishment of those who possess
counterfeit tender, with an intent to defraud. In fact, 18 [United States Code section]
3231 declares a contrary intent by stating that ‘[n]othing in this title [18] shall be held to
take away or impair the jurisdiction of the courts of the several States under the laws
thereof.’ ”].)
Finally, the People rely on remarks by the bill’s author that the bill “recognizes the
limits of government and the fact that many of our worst social problems will never be
solved by government alone.” (Remarks of Sen. Coats, 144 Cong. Rec. S11868 (Oct. 8,
1998).) The People argue this indicates Congress’s intent to delegate responsibility to the
local level and “permits no implication” that state prosecutions of grantees could be
preempted. However, the remark was not limited to the federal government, and appears
to be directed at local government as well. Moreover, the sentence quoted by the People
was immediately followed by: “We are beginning to recognize that there are people and
institutions, families, churches, synagogues, parishes, community volunteer
organizations, faith-based charities, that are able to communicate societal ideals and
restore individual hope, and we need to allow those organizations to compete to provide
services, and we have done so in each of the programs I have described.” (Ibid.) The full
statement thus underscores a Congressional understanding that the success of the AFI Act
21

70

depends on the willingness of organizations and entities to apply for AFI grants and
become grantee organizations. The threat of state criminal prosecution could
significantly dampen this willingness, thereby posing an obstacle to the objectives of the
AFI Act. (See Buckman, supra, 531 U.S. at p. 350.)12
We conclude the prosecutions of counts 2 and 3 were preempted by federal law.
We emphasize the narrowness of our holding, which is limited to state law liability for
grantees’ representations to HHS made pursuant to the AFI Act. This holding does not
extend to criminal liability for conduct by savers participating in the AFI program. It also
does not include theft prosecutions where an employee of the grantee took the federal
AFI funds for their own personal use (a circumstance not alleged here), as such a
prosecution would not arise from the relationship between the grantee and HHS as
governed by federal law.
E. Forfeiture of Preemption Claim as to Count 3
Finally, we turn to the People’s argument that appellants forfeited their preemption
claim as to count 3. Appellants concede they raised this argument in the trial court only
as to counts 1 and 2, but contend preemption is not forfeitable.
We need not decide whether appellants’ preemption argument can be forfeited
because we exercise our discretion to excuse any forfeiture. The issue is one of law and
does not involve any disputed facts. (People v. Rosas (2010) 191 Cal.App.4th 107, 115
[“appellate courts regularly use their discretion to entertain issues not raised at the trial
level when those issues involve only questions of law based on undisputed facts” (italics
omitted)].) Moreover, the People were not prejudiced by any forfeiture: appellants
preserved the identical claim as to other counts and the People point to no difference in
The People also point to the AFI Act’s section entitled “Local Control Over
Demonstration Projects” (AFI Act, § 411), and argue it would be “incongruous to
mandate local control but preclude local response to malfeasance.” However, the local
control referred to in the Act is the control of grantee organizations—not local
government—and is expressly subject to HHS’s sanction authority provided for in the
Act. (AFI Act, § 411 [“A qualified entity [grantee] . . . shall, subject to the [sanctions
provision of the Act], have sole authority over the administration of the project.”].)
12

22

71

the analysis involving count 3. (See People v. Yeoman (2003) 31 Cal.4th 93, 118 [“[T]o
consider the [forfeited] claim entails no unfairness to the parties, who had an opportunity
to litigate the relevant facts and to apply the relevant legal standard in the trial court [on a
properly raised and effectively identical claim]. Nor does it impose any additional
burden on us, as the reviewing court.” (fn. omitted)].) Accordingly, we excuse any
forfeiture on this issue as to count 3.
F. Conclusion
In sum, we find the prosecution of counts 2 and 3 preempted by federal law. We
will reverse the convictions on those counts. This conclusion renders moot a number of
appellants’ additional arguments, which we need not and do not resolve. However, it
does not impact Dillard’s conviction on count 6, preparing false documentary evidence,
and we consider Dillard’s remaining arguments relevant to that count.
II. Conflict of Interest
Appellants argue the trial court erred in denying their motion asserting the district
attorney’s office had a conflict of interest. We affirm.
A. Background
In October 2011, the County submitted a claim under its crime insurance policy
with AIG for the Agency’s remaining liability to HHS of approximately $317,000 in AFI
funds.
In February 2012, the Alameda County District Attorney filed criminal charges
against appellants. At the November 2012 preliminary hearing, one of the witnesses was
the interim executive director of the Agency appointed to oversee its dissolution after
appellants’ termination. During cross-examination, the witness testified that the County
had filed a claim with its crime insurance policy for the AFI funds.
In March 2013, AIG sent a letter to the County with a “preliminary assessment” of
the claim. The letter stated “it does not appear likely that the County will be able to
establish that it has incurred an actual net loss covered under [the relevant policies]
resulting directly from the alleged acts of Ms. Dillard. Any payment which the County
might be required to make to the Federal Government is a return of funds to which it was
23

72

not otherwise entitled and thus . . . . an indirect loss, not covered under these insuring
agreements.” In addition, “our investigation thus far do[es] not show that [the Agency]
suffered an actual net loss with respect to the use of the grant funds. . . . [T]he funds in
question were used to fund the ongoing operations of [the Agency]. . . . Such losses are in
the nature of bookkeeping losses that do not otherwise result in an actual net diminution
of assets of the insured” and “accordingly are not generally covered under the [applicable
policy].” AIG underscored, however, that it “has not reached a final conclusion” as to
coverage. The People did not produce this letter to appellants.
In September 2013, counsel for Daniels sent a letter to the People asking for
discovery of “[the Agency’s] crime insurance policy and all documents related to any
claims made on that policy.” The People again did not produce the March 2013 AIG
letter, subsequently representing they did not possess it, but appellants apparently
obtained it through a third-party subpoena on the Agency’s custodian of records (one of
the constituent cities). Appellants claimed they did not receive the letter until after the
start of trial, although before the presentation of evidence.
After the jury was sworn but before the presentation of evidence, Daniels filed a
motion, later joined by Dillard, seeking dismissal of the charges due to prosecutorial
misconduct of failing to produce the AIG letter.13 Appellants argued the People
intentionally failed to disclose the letter because it “demonstrates an unavoidable conflict
of interest for the District Attorney,” namely, that because the claim is still pending, the
County “is trying this criminal case on a contingency basis . . . .” Although the AIG
letter itself makes no reference to the then-pending criminal charges, Daniels’s trial
counsel represented that he spoke to an AIG representative who stated AIG was awaiting
the outcome of the criminal trial. The motion continued: “Had defense counsel been
timely provided with documentation demonstrating this obvious financial conflict of

Appellants also argued the People’s failure to disclose the AIG letter constituted a
Brady violation because the letter was exculpatory. (Brady v. Maryland (1963) 373 U.S.
83.) They do not pursue this challenge on appeal.
13

24

73

interest, they would have filed a motion to recuse the district attorney in this case under
[section] 1424 . . . . Due to the concealment of that information, however, it is impossible
to substitute in new counsel after the start of trial.” The motion cited no authority for the
assertion that filing the recusal motion was now “impossible.”
At the hearing on the motion, the trial court began by summarizing appellants’
argument: “had the insurance records been timely provided, that they might well have
demonstrated a conflict of interest on the part of the District Attorney, which would have
grounded a motion pursuant to [section] 1424, to recuse, but which at this late date
cannot be brought because I think basically jeopardy has already attached.” Appellants
agreed with this statement of the issue. Following argument, the trial court denied the
motion to dismiss “for the reasons implied by my questioning in court.” The court’s
questioning indicated its skepticism that the letter demonstrated a conflict of interest
rendering it unlikely appellants would receive a fair trial.
B. Legal Standard
“[D]ismissal is an appropriate sanction for government misconduct that is
egregious enough to prejudice a defendant’s constitutional rights.” (People v. VelascoPalacios (2015) 235 Cal.App.4th 439, 446 (Velasco-Palacios).) Here, appellants argued
below the alleged prosecutorial misconduct prevented them from filing a timely section
1424 motion to disqualify the district attorney. The trial court’s denial appears to have
rested on a conclusion that any section 1424 motion would not have been successful.
Section 1424 provides that a motion to disqualify a district attorney “may not be
granted unless the evidence shows that a conflict of interest exists that would render it
unlikely that the defendant would receive a fair trial.” “The statute demands a showing
of a real, not merely apparent, potential for unfair treatment, and further requires that that
potential ‘rise to the level of a likelihood of unfairness.’ [Citation.] Although the statute
refers to a ‘fair trial,’ we have recognized that many of the prosecutor’s critical
discretionary choices are made before or after trial and have hence interpreted section
1424 as requiring recusal on a showing of a conflict of interest ‘ “so grave as to render it
unlikely that defendant will receive fair treatment during all portions of the criminal
25

74

proceedings.” ’ [Citation.] [¶] On review of the trial court’s denial of a recusal motion,
‘[o]ur role is to determine whether there is substantial evidence to support the [trial
court’s factual] findings [citation], and, based on those findings, whether the trial court
abused its discretion in denying the motion.’ ” (People v. Vasquez (2006) 39 Cal.4th 47,
56 (Vasquez).)
C. Analysis
As an initial matter, appellants’ argument on appeal suggests their motion below
was a “recusal motion” which the trial court denied because it was untimely. Appellants
argue this denial was in error because there is no time limit for filing a recusal motion. In
fact, as set forth above, appellants filed a motion to dismiss in which they asserted that a
disqualification motion would be untimely. The People argue appellants’ failure to
accurately characterize the proceedings below or to present appellate argument on
prosecutorial misconduct (as opposed to conflict of interest) forfeits this issue. We need
not decide whether any forfeiture occurred because, as we explain below, we affirm the
trial court’s ruling.
First, assuming (without deciding) the People’s failure to produce the AIG letter
was misconduct, appellants’ argument on appeal refutes their claim of prejudice below.
In the trial court, appellants argued they were prejudiced because the People’s failure to
provide the letter sooner precluded appellants from filing a timely section 1424 motion.
On appeal, appellants argue there are no time limits in which such a motion must be filed.
Because, according to appellants’ own argument (on which we express no opinion), they
were not precluded from filing a section 1424 motion after receiving the AIG letter, any
prosecutorial misconduct in failing to provide the letter earlier did not cause prejudice.
Second, assuming that a section 1424 motion would have been untimely and that
appellants have not forfeited this claim, dismissal is only appropriate if any prosecutorial
misconduct prejudices appellants’ constitutional rights. (See Velasco-Palacios, supra,
235 Cal.App.4th at p. 446.) The only prejudice relied on by appellants below was their
purported inability to file a section 1424 motion to disqualify the district attorney.
However, an inability to file a section 1424 motion—even assuming the motion would
26

75

have been granted—does not alone constitute a violation of constitutional rights. “[T]rial
courts’ statutory power under section 1424 . . . allow[s] recusal whenever a conflict
creates a likelihood of unfair treatment. This standard serves to prevent potential
constitutional violations from occurring. Thus, the failure to recuse when required under
section 1424 may lead to the denial of a fair trial or other unfair treatment, but does not
necessarily do so.” (Vasquez, supra, 39 Cal.4th at p. 59.)
Finally, the trial court did not abuse its discretion in concluding that a section 1424
motion based on the AIG letter would be unsuccessful.14 We note that the original
charges against appellants were brought more than a year before the AIG letter issued and
therefore any conflict of interest resulting from the letter could not exist at that time.
Although, as appellants note, conflicts of interest can cause unfairness in other phases of
criminal proceedings, appellants fail to identify any unfairness other than the fact of the
prosecution itself, nor do they identify any changes in the prosecution’s approach taking
place after the letter issued. Moreover, it is unclear how the prosecution would impact
AIG’s coverage decision in light of the People’s concession that they were not alleging
appellants used AFI funds for their own personal use. Most significantly, appellants fail
to provide authority that the potential for a criminal conviction to financially impact a
county renders that county’s district attorney’s office conflicted. Cases involving the
direct financial interest of a district attorney’s office are inapposite. (See County of Santa
Clara v. Superior Court (2010) 50 Cal.4th 35, 51 [“giving a public prosecutor a direct
pecuniary interest in the outcome of a case that he or she is prosecuting ‘would render it
unlikely that the defendant would receive a fair trial’ ”]; People v. Eubanks (1996) 14
Cal.4th 580, 595–596 [“a scheme that provides monetary rewards to a prosecutorial
office might carry the potential impermissibly to skew a prosecutor’s exercise of the
charging and plea bargaining functions”]; Eubanks, at p. 598 [conflict of interest present

Appellants contend our review is de novo because the trial court’s ruling was based on
a legal error, to wit, that the recusal motion was untimely. As explained above, we reject
this characterization of the basis for the trial court’s ruling.
14

27

76

where corporate crime victim paid a “ ‘substantial’ ” debt incurred by the district attorney
in investigating the case].) Although a district attorney’s budget may be impacted by a
county’s overall financial health, appellant cites no authority that such an attenuated
impact can render it unlikely that a defendant will receive a fair trial. We affirm the trial
court’s denial of appellants’ motion to dismiss.15
III. Vindictive and Retributive Prosecution
Appellants next argue the trial court erred by refusing to let them “submit
evidence and argument to convince the jury that the prosecution was vindictive and
retributive,” in violation of their right to due process and a fair trial. We disagree.
During in limine motions, the People sought to exclude evidence of (1) the
County’s insurance claim, and (2) a lawsuit brought by Dillard against the County
alleging her termination proceedings violated public meetings laws, and the parties’
subsequent settlement. The People argued such evidence was irrelevant or, to the extent
there was some relevance, should be excluded pursuant to Evidence Code section 352.
The trial court denied the motion, finding both sets of evidence relevant “to establish
bias, interest or motive of at least one or some of the witnesses.” However, during
argument on the motion, the court noted appellants “are alleging[] a discriminatory
prosecution motion in the guise of what you wish to bring in front of a jury.”
During trial, the court permitted testimony that Dillard sued the County, claiming
her termination violated the Brown Act; that the lawsuit settled and pursuant to that
settlement the County paid Dillard $219,000 plus $100,000 in attorney fees; that the
County filed a claim for approximately $318,000 on its crime insurance policy based on
HHS’s disallowance of AFI funds; that AIG issued a “soft denial” of the claim; and that
the Agency’s member municipalities had not yet paid back the disallowed AFI funds
because the repayment was “pending insurance claims.” However, the court excluded
15

Appellants also rely on evidence elicited at trial that they claim shows the district
attorney “commenced this prosecution at the behest of Ms. Dillard’s political enemies.”
This was not the basis of appellants’ dismissal motion below and we decline to consider
it.

28

77

under Evidence Code section 352 the settlement agreement for Dillard’s termination
lawsuit and the County’s insurance claim form.16 The court also sustained prosecution
objections to statements during closing arguments about the civil settlement agreement
and the People’s motives in prosecuting the case. The court instructed the jury, in the
course of sustaining these objections, that “the purpose of [evidence about the County’s
crime insurance claim] is for you to assess any bias that witnesses might have because of
that outstanding crime insurance policy and for no other reason,” and “[t]he reason why
cases are filed are not a matter for your consideration.”
Appellants argue the trial court’s rulings violated their constitutional right to
present evidence in their defense. Appellants’ “attempt to inflate garden-variety
evidentiary questions into constitutional ones is unpersuasive. ‘As a general matter, the
“[a]pplication of the ordinary rules of evidence . . . does not impermissibly infringe on a
defendant’s right to present a defense.” ’ ” (People v. Boyette (2002) 29 Cal.4th 381,
427–428.) Appellants also claim a violation of their right to present closing argument.
“It is firmly established that a criminal defendant has a constitutional right to have
counsel present closing argument to the trier of fact. [Citations.] Nonetheless, it is
equally settled that a judge in a criminal case ‘must be and is given great latitude in
controlling the duration and limiting the scope of closing summations.’ ” (People v.
Rodrigues (1994) 8 Cal.4th 1060, 1184.)
The trial court did not abuse its discretion in excluding evidence and limiting
argument. “To be relevant, evidence must have some ‘tendency in reason to prove or
disprove any disputed fact that is of consequence to the determination of the action.’
(Evid.Code, § 210.)” (People v. Contreras (2013) 58 Cal.4th 123, 152.) Appellants
argue the evidence was relevant to show the prosecution’s motive in pursuing criminal
charges. “[E]vidence of a prosecutor’s subjective motivations when prosecuting a case is
16

Although appellants claim the trial court also excluded the March 2013 AIG letter, the
provided record cite does not support this claim. Because the March 2013 AIG letter
does not appear on appellants’ exhibit list, it appears appellants did not seek admission of
this document at trial.

29

78

not relevant . . . .” (People v. Seumanu (2015) 61 Cal.4th 1293, 1329.) Appellants argue
Seumanu involved a claim of prosecutorial vouching and is therefore inapplicable. We
disagree. A prosecutor’s subjective motivation is not relevant to any issue before the
jury, regardless of which side tries to use it to their advantage.
Appellants contend prosecutorial motive is relevant for claims of vindictive or
retaliatory prosecution, but such claims are properly argued to the court, not the jury—the
basis for the claim is that vindictive prosecutions violate a defendant’s constitutional
rights, not that they constitute evidence of innocence. (See People v. Valli (2010) 187
Cal.App.4th 786, 802 [“The gravamen of a vindictive prosecution is the increase in
charges or a new prosecution brought in retaliation for the exercise of constitutional
rights. [Citation.] It is ‘patently unconstitutional’ to ‘chill the assertion of constitutional
rights by penalizing those who choose to exercise them.’ ”].) To the extent evidence
regarding Dillard’s lawsuit and the County’s insurance claim were relevant to the jury’s
assessment of a witness’s credibility, the court permitted the evidence and argument. In
sum, the challenged rulings regarding evidence and argument were proper and did not
violate appellants’ constitutional rights.
IV. Substantial Evidence (Count 6)
Finally, Dillard argues the guilty verdict on count 6 (preparing false documentary
evidence; § 134) lacks substantial evidence. We disagree.
Section 134 prohibits “preparing any false or antedated book, paper, record,
instrument in writing, or other matter or thing, with intent to produce it, or allow it to be
produced for any fraudulent or deceitful purpose, as genuine or true, upon any trial,
proceeding, or inquiry whatever, authorized by law . . . .” Dillard concedes there is
substantial evidence that she prepared two ante-dated documents: the agenda for the hotel
meeting and the memorandum regarding the residential status of two CREW members.
She argues there is no substantial evidence that she prepared either document with the
intent that it be produced for any proceeding authorized by law or that she intended their
production for a fraudulent or deceitful purpose.

30

79

First, Dillard prepared the ante-dated documents within two days after she was
placed on administrative leave. Second, she asked her former assistant to place the antedated documents in the Agency’s files. Third, when she asked her former assistant to
send her the files regarding the CREW employees, she expressly stated her intent to
“review them in order to prepare any defense I might need.” This evidence, taken
together, provides substantial evidence that Dillard prepared the documents with the
intent that they be used in some proceeding involving her performance while employed at
the Agency. That they were never so used is immaterial: “There is no requirement that
the evidence actually be produced at all, only that the defendant intended it to be
produced at any trial, proceeding, or inquiry, whatever, authorized by law.” (People v.
Morrison (2011) 191 Cal.App.4th 1551, 1556.)
As Dillard argues, the contemplated proceeding must be “authorized by law.”
(See People v. Clark (1977) 72 Cal.App.3d 80, 83–84 [administrative grievance board
proceedings instituted pursuant to the Education Code are a “ ‘proceeding . . . authorized
by law’ ” for purposes of § 134].) In closing arguments, the prosecution identified as
possible proceedings a civil lawsuit filed by Dillard challenging any adverse employment
action,17 an investigation by the Board, and an audit. Dillard does not dispute that civil
litigation challenging adverse employment action is a proceeding authorized by law, but
argues the ante-dated documents were not relevant to the action she ultimately filed.
Again, that the documents were not ultimately used is immaterial; there was substantial
evidence for the jury to find that Dillard intended their use at the time she prepared them.
With respect to an investigation or audit by the Board, Dillard argues there is no evidence
such an inquiry was authorized by law or the Agency’s by-laws. To the contrary, the

We reject Dillard’s suggestion that the prosecutor committed misconduct by suggesting
during rebuttal argument that the documents were intended for use in Dillard’s civil suit
against the County. Dillard failed to object to the statement and has therefore forfeited
the argument. (People v. Bonilla (2007) 41 Cal.4th 313, 336 [“To preserve a claim of
prosecutorial misconduct during argument, a defendant must contemporaneously object
and seek a jury admonition.”].)
17

31

80

Agency’s joint powers agreement admitted into evidence at trial provides for an annual
audit conducted by a certified public accountant “[p]ursuant to Section 6505 of the
California Government Code . . . .” Government Code section 6505, subdivision (b),
requires “an annual audit of the accounts and records of every agency or entity” created
by a joint powers agreement. Such a proceeding is thus authorized by law.
Finally, the ante-dating of the documents provides substantial evidence that
Dillard intended they be used for a fraudulent or deceitful purpose, namely, as documents
purporting to record contemporaneous events. Substantial evidence supports the jury
verdict on count 6.
DISPOSITION
Appellants’ convictions on counts 2 and 3 are reversed. The matter is remanded to
the trial court for resentencing. The judgments are otherwise affirmed.

32

81

SIMONS, J.

We concur.

JONES, P.J.

NEEDHAM, J.

(A141998)

33

82

Superior Court of Alameda County, Nos. CH-53179A & CH-53179B, Hon. Allan
Hymer, Judge.
John Doyle, under appointment by the Court of Appeal, for Defendant and Appellant
Paul Daniels.
Violet Elizabeth Grayson, for Defendant and Appellant Nanette Sheree Dillard.
Kamala D. Harris and Xavier Becerra, Attorneys General, Gerald A. Engler, Chief
Assistant Attorney General, Jeffrey M. Laurence, Senior Assistant Attorney General,
René A. Chacón and J. Michael Chamberlain, Deputy Attorneys General, for Plaintiff
and Respondent.

34

83

